f

A
//

(V,/?cu/ T

doaa-r

OF ApPc&CS

CiEtJiAL- oF Mot,&£ aaa>t\Xi/£MTio*J

ci

e)

mm

USCA11 Case: 20-11466

Date Filed: 02/23/2021

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-11466-J
CASH WALLACE PAWLEY, SR.,
Petitioner-Appellant,
versus
SECRETARY, FLORIDA DEPARTMENT OF
CORRECTIONS,
Respondent-Appellee.
Appeal from the United States District Court
for the Southern District of Florida
Before: MARTIN and BRANCH, Circuit Judges.
BY THE COURT:
Cash Wallace Pawley, Sr., has filed a motion for reconsideration, pursuant to 11th Cir. R.
27-2 and 22-l(c), of this Court’s January 21, 2021, order denying a certificate of appealability.
Upon review, Pawley’s motion for reconsideration is DENIED because he has offered no new
evidence or arguments of merit to warrant relief.

// rF C-UlcOt

i

CoJ/lT oF APPEALS
fb /2_
( / OA'>

Of APpLSCA

£)E~ a/ ^
(2-£6-y \-F><-AT£r

rr APPEALA&t-iTY

fz '?a3eS')

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-11466-J

CASH WALLACE PAWLEY, SR.,
Petitioner-Appellant,
versus
SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS,
Respondent-Appellee.

Appeal from the United States District Court
for the Southern District of Florida

ORDER:
To merit a certificate of appealability, Cash Wallace Pawley,Sr. must show that reasonable
jurists would find debatable both: (I) the merits of an underlying claim, and (2) the procedural
issues that he seeks to raise. See 28 U.S.C. § 2253(c)(2); Slack v. McDaniel, 529 U.S. 473, 478,
120 S. Ct. 1595, 1600-01, 146 L. Ed. 2d 542 (2000). Because he has failed to make the requisite
showing, the motion for a certificate of appealability is DENIED.

/si Elizabeth L. Branch
UNITED STATES CIRCUIT JUDGE

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
David J. Smith
Clerk of Court

For rules and forms visit
www.cal l.uscourts.eov

January 21, 2021
Cash Wallace Pawley Sr.
Okeechobee Cl - Inmate Legal Mail
3420 NE 168TH ST
OKEECHOBEE, FL 34972
Appeal Number: 20-11466-J
Case Style: Cash Pawley, Sr. v. Secretary, Florida Department
District Court Docket No: 4:17-cv-10027-KMM
The enclosed copy of this Court's order denying the application for a Certificate of
Appealability is issued as the mandate of this court. See 11th Cir. R. 41-4. Counsel and pro se
parties are advised that pursuant to 11th Cir. R. 27-2, "a motion to reconsider, vacate, or modify
an order must be filed within 21 days of the entry of such order. No additional time shall be
allowed for mailing."
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Davina C Bumey-Smith, J
Phone #: (404) 335-6183
Enclosure(s)
DIS-4 Multi-purpose dismissal letter

APPEND IX

E
(J/0' \ c,
ClEtOvArL
OF

OF

CoOA-T '5
^N6i~T

TES
Ffe'T1'1’10^

Md-EA -5

(l<A

goAfiOS

£ Z-Z^N

)

Ca$e: 4:17-cv-10027-KMM

Document #: 81 Entered on FLSD Docket: 03/30/2020

Page 1 of 14

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
Case No. 4:17-cv-10027-KMM
CASH WALLACE PAWLEY
Petitioner,
v.

MARK S. INCH,
Respondent.

ORDER ON REPORT AND RECOMMENDATION
THIS CAUSE came before the Court upon Petitioner Cash Wallace Pawley’s Amended
Petition for Writ of Habeas Corpus pursuant to 28 U.S.C. § 2254. (“Am. Pet.”) (ECF No. 12).
The Court referred the matter to the Honorable Lisette M. Reid, United States Magistrate Judge,
who issued a Report and Recommendation recommending that the Petition be DISMISSED.
(“R&R”) (ECF No. 68). Petitioner filed objections. (“Objs”) (ECF No. 77). The matter is now
ripe for review. As set forth below, the Court ADOPTS the R&R IN PART. l

i

The Court adopts Magistrate Judge Reid’s R&R with the following modifications: page one,
footnote one should read: “Federal Rule of Civil Procedure 25(d).”; the citation on page two, lines
fifteen to sixteen should read: “[DE 35-13] at 3.”; the citation on page two, line twenty should
read: “Id. at 39, 41.”; the citation on page three, line one should read: ‘74. at 52.”; the citation on
page three, line three should read: “Id. at 53.”; the citation on page three, line five should read:
“[DE 35-13] at 103-04”; page ten, lines ten through twelve should be in quotation marks and read
as follows; “A state’s interpretation of its own laws or rules is no basis for federal habeas corpus
relief, since no constitutional question is involved.”; page eleven, lines seven through eight should
read: “must ‘exhaust[ ] the remedies available in the courts of the State.’ 28 U.S.C. § 2254(b)(1).”;
page twelve, line seventeen should read: “established.” Smith v. Jones, 256 F.3d 1135, 1138 (11th
Cir. 2001) (citation omitted).”; the citation on page thirteen, line one should read: “Biggs v. McNeil,
No. 08-60428-CIV, 2008 WL 5054342, at *4 (S.D. Fla. Nov. 26, 2008); see also Lambrix v.
Singletary, 520 U.S. 518, 524-25 (1997)”; the pin cite in the citation on page fourteen, line sixteen
should be 100; page fifteen, lines thirteen through fifteen should read: “As recently noted by the
Supreme Court, ‘adherence to these principles serves important interests of federalism and

Case: 4:17-cv-10027-KMM

Document #: 81 Entered on FLSD Docket: 03/30/2020

Page 2 of a.4

The Court may accept, reject, or modify, in whole or in part, the findings or
recommendations made by the magistrate judge. 28 U.S.C. § 636(b)(1); Fed. R. Civ. P. 72(b)(3).
The Court “must determine de novo any part of the magistrate judge’s disposition that has been
properly objected to.” Fed. R. Civ. P. 72(b)(3). A de novo review is therefore required if a party
files “a proper, specific objection” to a factual finding contained in the report. Macort v. Prem,
Inc., 208 F. App’x 781, 784 (11th Cir. 2006). “It is critical that the objection be sufficiently
specific and not a general objection to the report” to warrant de novo review. Id. (citation omitted).
In the Amended Petition, Petitioner attacks the constitutionality of his conviction and
sentence for attempted-first degree murder, aggravated assault with a weapon, and battery in the
Sixteenth Judicial Circuit Court, in and for Monroe County. See generally Am. Pet. Petitioner

comity.’ Woods v. Donald, 575 U.S. 312, 316 (2015).”; the citation on page sixteen, lines six to
seven should read: “Burtv. Titlow,51\ U.S. 12,18 (2013).”; on page seventeen, the second citation
as to claim 2 and claim 21 should be “DE 34-60”; the second sentence in footnote four on page
nineteen should be in quotations; the citation on page twenty-three line fifteen should read: “[DE
34-62].”; the citation on page twenty-seven, line four should read: “Id. at 103.”; the citation on
page twenty-eight, line ten should read: “Obando v. Jones, No. 14-CIV-21606-MORENO, 2015
WL 4112087, at *16 n.21 (S.D. Fla. June 16, 2015) (citing Barclay v. Florida, 463 U.S. at 95859).”; the citation on page thirty, line six should have a pin cite of 1110; the quotation on page
thirty-one, line four should read “last related state-court decision that does not provide”; the
quotation on page thirty-one, lines thirteen to fourteen should read: “the alleged offense and assist
the [defendant in the preparation of such a defense.”; the citation on page thirty-two, line one
should read: “Strickland, 466 U.S. at 694”; the citation on page thirty-seven, line seventeen should
read: “Harrington, 562 U.S. at 98.”; and the citation on page thirty-seven, line twenty should read:
“Waldon, 363 F.3d at 1110.” Moreover, the Court does not adopt citations in the R&R that do not
conform to The Bluebook: A Uniform System of Citation (Columbia Law Review Ass’n et al.
eds., 20th ed. 2015). Finally, the Court declines to adopt the first paragraph of Part II (Procedural
History) to the extent that it implies that the Third District Court of Appeal barred Petitioner from
further filings in Monroe County Circuit Court unless signed by a member of the Florida Bar, as
the order in Pawley v. State, 217 So.3d 128, 130 (Fla. Dist. Ct. App. 2017) merely required
Petitioner to show cause why he should not be prohibited from further filings. See R&R at 3-4.

2

Case: 4:17-cv-10027-KMM

Document #: 81 Entered on FLSD Docket: 03/30/2020

Page 3 of 14

proceeded pro se during the guilt phase of the trial (ECF No. 35-5), but he was represented by
counsel at sentencing (ECF No. 34—5). He was also represented by counsel during the direct appeal
of his conviction and sentence, both of which were affirmed. (ECF Nos. 33, 34-44). In addition
to his direct appeal, Petitioner has filed multiple postconviction motions, and writs of mandamus.
See R&R at 5. Now, Petitioner asserts 27 claims for federal habeas relief, including claims related
to trial court misconduct, prosecutorial misconduct, and ineffective assistance of counsel. See id.
at 5-8.2
In the R&R, Magistrate Judge Reid finds that certain of Petitioner’s claims are
unexhausted, others are procedurally barred, and the remaining claims are meritless. See generally
id. The Court addresses Magistrate Judge Reid’s findings as to the claims in each of these
categories in turn.
A.

Exhaustion of Claims
First, Magistrate Judge Reid finds that claims 2-17 and claim 19 were not property

exhausted in state court. Id. at 18-21. Specifically, Magistrate Judge Reid finds that the claims
were not exhausted because they were only referenced in a postconviction motion alleging that
Petitioner’s counsel was ineffective because he failed to raise these claims on direct appeal. Id. at
19-20. Because these claims were not raised as substantive claims in state court, Magistrate Judge
Reid finds that Petitioner failed to fully exhaust these claims. Id. This Court agrees. Indeed, “it
is inappropriate to use a different argument to relitigate the same issue,” and “[ajllegations of
ineffective assistance cannot be used to circumvent the rule that postconviction proceedings cannot
serve as a second appeal.” Green v. State, 975 So. 2d 1090, 1105 (Fla. 2008) (citations omitted).

2 In the R&R, Magistrate Judge Reid quotes Petitioner’s 21 claims verbatim from the Amended
Petition. See R&R at 5-8. The Court refers to each of the claims by the number associated with
each such claim in both the Amended Petition and the R&R.
3

Case: 4:17-cv-10027-KMM

Document#: 81 Entered on FLSD Docket: 03/30/2020

Page 4 of 14

Further, the Court agrees with Magistrate Judge Reid that even if these claims were not exhausted
and procedurally barred, the claims fail to state an ineffective assistance of counsel claim under
Strickland v. Washington, 466 U.S. 668 (1984).
In his Objections, Petitioner argues that his ineffective assistance of counsel claim satisfies
the cause exception for failing to raise these claims on direct appeal. Objs. at 14 (citation omitted).
“Ineffective assistance of counsel may satisfy the cause exception to a procedural bar.” United
States v. Nyhuis, 211 F.3d 1340, 1344 (11th Cir. 2000) (citation omitted). However, to establish
this exception, Petitioner must not only show cause but also prejudice.

Murray v.

Carrier, 477 U.S. 478, 493-94 (1986); Greene v. United States, 880 F.2d 1299, 1305 (11th Cir.
1989); see also Nyhuis, 211 F.3d at 1344 (holding that the “claim of ineffective assistance must
have merit” in order to satisfy the cause exception to procedural bar.”) Here, Petitioner’s
conclusory objection that a claim of ineffective assistance of counsel may satisfy the cause
exception is not sufficient to demonstrate that Petitioner’s claim has merit, and therefore, that he
was prejudiced by counsel’s failure to raise these claims. Murray, 477 U.S. at 494; Nyhuis, 211
F.3d at 1344. Notably, counsel was “not ineffective for failing to raise claims ‘reasonably
considered to be without merit.’”

Nyhuis, 211 F.3d at 1344. Indeed, the state court already

determined his appellate counsel was not ineffective for failing to raise these claims. R&R at 30.
Therefore, the Court finds that the cause exception does not apply, as Petitioner’s ineffective
assistance of counsel claim is without merit. Accordingly, this Court agrees with Magistrate Judge
Reid that claims 3-17 and claim 19 were unexhausted in state court and thus now procedurally
barred.
As to claim 2, Petitioner argues that Magistrate Judge Reid incorrectly concluded that this
claim was not exhausted because he raised this claim in his Rule 3.800 motion to correct illegal

4

Case: 4:17-cv-10027-KMM

Document#: 81 Entered on FLSD Docket: 03/30/2020

Page 5 of 14

sentence, in his habeas petition alleging ineffective assistance of appellate counsel, on direct
appeal, in his motion for postconviction relief, and in a writ Of certiorari to the United States
Supreme Court. Objs. at 12. Upon review, Petitioner raised a variation of claim 2 in several state
court proceedings, including in his Rule 3.800 motion to correct illegal sentence, see (ECF No.
34-62), habeas corpus petition alleging ineffective assistance of appellate counsel (ECF No. 3488), and motion for postconviction relief (ECF No. 34-101). Nonetheless, even if exhausted, the
Court finds that the claim is procedurally barred as it does not present a federal constitutional
question. See 28 U.S.C. § 2254(a) (“The Supreme Court, ... a circuit judge, or a district court
shall entertain an application for a writ of habeas corpus ... only on the ground that [the petitioner]
is in [state] custody in violation of the Constitution or laws or treaties of the United States.”). In
claim 2, Petitioner argues that the charging document was insufficient and thus the Court lacked
jurisdiction to hear the claim. Am. Pet. at 8. The sufficiency of a charging document and the state
court’s jurisdiction to hear a claim involve a state’s determination of state law issues do not provide
a basis for federal habeas corpus relief. SeeBrananv. Booth, 861 F.2d 1507,1508 (11th Cir. 1988)
(“Were this Court to undertake a review of the instant petition, we would have to conduct an
examination of Florida case law and of the Florida Rules of Criminal Procedure. This we will not
and cannot do.”); Chandler v. Armontrout, 940 F.2d 363, 366 (8th Cir. 1991) (citation omitted)
(“The adequacy of an information is primarily a question of state law and we are bound by a state
court’s conclusion respecting jurisdiction.”); Jones v. Sec’y, Fla. Dep’t of Corr., No. 1:11-CV00269-MP-GRJ, 2014 WL 505093, at *6 (N.D. Fla. Feb. 7, 2014) (citations omitted) (“A state
court’s jurisdiction to convict and sentence a defendant are quintessential state law matters this
Court cannot review in a federal collateral proceeding.”). Therefore, even if Petitioner properly
exhausted state court remedies as claim 2, the claim is procedurally barred.

5

Case: 4:17-cv-10027-KMM

Document#: 81 Entered on FLSD Docket: 03/30/2020

Page 6 of 14

Accordingly, this Court agrees with Magistrate Judge Reid that that Petitioner failed to .
exhaust available state court remedies as to claims 3-17 and claim 19. Further, the Court finds
that claim 2 is procedurally barred.
B.

Procedurally Barred Claims
Second, Magistrate Judge Reid finds that claims 20-21 and claim 25, which were

exhausted in the state courts, are procedurally barred. R&R at 21-25. In claim 20, Petitioner
alleges that the trial and state intermediate appellate courts erred in denying his postconviction
motion, including by not providing him with the opportunity to amend his motion or holding a
hearing on the matter. Am. Pet. at 18. In claim 21, Petitioner argues that he received a sentence
that was more than the maximum permitted under Florida law. Id. at 19. Magistrate Judge Reid
finds that these claims are procedurally barred because they do not present federal constitutional
questions. R&R at 22-24.
In the Objections, Petitioner argues that Magistrate Judge Reid erred in finding that claims
20-21 do not present a federal constitutional question, arguing that “[a] state’s failure to abide by
its own laws . . . may violate due process if the failure cause a deprivation of liberty.” Objs. At
16-17 (quoting Cranford v. Lockhart, 975 F.2d 1347, 1349 (8th Cir. 1992)). Here, however,
Petitioner asks the Court to “reexamine state-court determinations on state-law questions,” which
this Court cannot do. Estelle v. McGuire, 502 U.S. 62, 68 (1991); Branan, 861 F.2d at 1508 (“In
the area of state sentencing guidelines in particular, we consistently have held that federal courts
can not review a state's alleged failure to adhere to its own sentencing procedures.”). Therefore,
this Court agrees with Magistrate Judge Reid that these claims are procedurally barred.
In claim 25, Petitioner asserts a claim under Brady v. Maryland, 373 U.S. 83 (1963). Am.
Pet. at 23-25.

Magistrate Judge Reid recommends that this Court find that this claim is

6

Case: 4:17-cv-10027-KMM

Document #.: 81 Entered on FLSD Docket: 03/30/2020

Page 7 of 14

procedurally barred because the postconviction court ‘“clearly and expressly’ states that its
judgment rests on a procedural bar.” R&R at 24. Specifically, the postconviction court found that
“[withholding Brady material is an issue which could have been a matter for direct appeal” and
thus was not properly raised in Petitioner’s Rule 3.800 motion. Id.
In the Objections, Petitioner argues that the state court was incorrect in finding that he was
procedurally barred from raising his Brady violation claim in his Rule 3.850 motion. Objs. at 18.
In support, Petitioner cites to a case where the court found that a “postconviction court incorrectly
concluded that a Brady violation is a trial court error that cannot be raised in a motion for
postconviction relief.” Felder v. State, 198 So. 3d 951, 953 (Fla. Dist. Ct. App. 2016).
Although a Brady violation claim “is cognizable in a rule 3.850 motion,” id. (citation
omitted), a postconviction motion is not a means by which a petitioner may seek the “review[] [of]
ordinary trial errors which are cognizable on direct appeal.” Ratliff v. State, 256 So.2d 262, 264
(Fla. Dist. Ct. App. 1972). Indeed, claims “which were or could have been raised on direct appeal
and are thus foreclosed from consideration under post-conviction relief.” Smith v. State, 453 So.
2d 388, 389 (Fla. 1984) (citation omitted); see Fla. R. Crim. P. 3.850(c) (“This rule does not
authorize relief based on grounds that could have or should have been raised at trial and, if properly
preserved, on direct appeal of the judgment and sentence.”). Here, the state court found that
Petitioner was procedurally barred from raising his Brady violation claim in his Rule 3.850 motion
because he could and should have raised it on direct appeal. (ECF No. 34-106) at 9. And, as set
forth in the R&R, because the state court found that the claim was procedurally barred, this Court
may not consider the claim on federal habeas review. R&R at 24. Therefore, Petitioner’s objection
as to this claim is without merit and claim 25 fails.

7

Case: 4:17-cv-10027-KMM

C.

Document #: 81 Entered on FLSD Docket: 03/30/2020

Page 8 of 14

Merits Analysis
Third, Magistrate Judge Reid finds that claim 1, claim 18, claims 22-24, and claims 26-27

fail on the merits. Id. at 25-37. In claim 1, Petitioner asserts the trial court violated his rights to
compulsory process and due process when he was provided with “faulty and incorrect” subpoenas
that did not include a place for him to fill in a date and time. Am. Pet. at 6. He alleges that the
subpoenas were never served—and thus he was unable to call any witnesses at trial—as a result of
the clerk’s error. Id. As set forth in the R&R, Magistrate Judge Reid finds that there was no
constitutional violation, as the trial court did not prevent Petitioner from calling witnesses in his
own defense. R&R at 27-28. Therefore, Magistrate Judge Reid recommends that the Court
dismiss the claim, as the state courts did not unreasonably apply clearly established federal law in
denying relief as to this claim. Id. at 28.
In the Objections, Petitioner argues that Magistrate Judge Reid “completely misconstrues
the claim,” as he does not allege a constitutional violation by the clerk of court for providing
incorrect subpoenas, but rather asserts that the trial court judge, who was told weeks prior to trial
that the subpoenas were deficient, did not “vindicate the constitutional rights of [Petitioner].”
Objs. at 19-20. As an initial matter, Petitioner takes issue with the statement in the R&R that he
waited until the Friday before the Monday trial date to seek to issue the subpoenas. Id. at 20-21.
Petitioner argues that he sought to issue the subpoenas three weeks before trial—on August 29,
2013. Id. at 21.
Upon review of the record, it appears that Petitioner requested that the clerk of the court
send him 36 blank subpoenas on August 29, 2013.3 (ECF No. 34-118). During trial, the trial

3 There are two dates and two signatures on the request. One date is August 29, 2013 and the other
is September 9, 2013. (ECF No. 34-118).
8

Case: 4:17-cv-10027-KMM

Document #: 81 Entered on FLSD Docket: 03/30/2020

Page 9 of 14

judge stated that he was contacted on the Friday afternoon before trial by the clerk’s office stating
that “they received a large volume of subpoenas from [Petitioner]” and that they “were very
concerned about it being extremely late.” (ECF No. 35-16) at 939. The trial judge stated that he
“instructed them to follow their usual procedure.” Id. The clerk’s office provided a report during
the trial, indicating that they followed their usual procedure as instructed and issued the subpoenas
that day. Id. at 939-40. However, the sheriffs office indicated that they would not be able to
process the subpoenas on Monday “because they did not have any date, time, or place on them.”
Id. at 940. Therefore, the record does not reflect the facts as Petitioner portrays them in the
Objections. Further, Petitioner’s only challenge to Magistrate Judge Reid’s merits determination
as to this claim is that “[a]nyone reading this claim could easily discern that there was absolutely
no reasonable basis for the State Court to deny relief.” Objs. at 21 (alteration and internal quotation
marks omitted). This is not a proper objection that requires de novo review, but rather amounts to
disagreement with the finding in the R&R. See Macort, 208 F. App’x at 784 (finding de novo
review only necessary when the objection is “sufficiently specific and not a general objection to
the report”). This Court agrees with Magistrate Judge Reid that claim 1 fails on the merits.
In claim 18, Petitioner alleges that his appellate counsel was ineffective because his counsel
failed to raise the 25 issues he identified in his state habeas petition. Am. Pet. at 17. He claims
that these errors considered “cumulatively” violated his Sixth Amendment right to effective
assistance of counsel. Id. As set forth in the R&R, Magistrate Judge Reid finds that because “the
state court has found no singular error, it was not unreasonable for the state court to reject a
cumulative effect claim.” R&R at 30 (citation omitted).
In the Objections, Petitioner argues that there “need not be even a single error by counsel
that rises to the constitutional level of ineffective assistance of counsel ... for there to be

9

Case: 4:17-cv-10027-KMM

Document#: 81 Entered on FLSD Docket: 03/30/2020

Page 10 ot44

cumulative error found.” Objs. at 23. Although there are circumstances where there can be
cumulative error even where individual failure of counsel may be insufficient to find that the
counsel’s performance was constitutionally deficient, the question before the Court is whether the
state court was unreasonable in rejecting Petitioner’s cumulative effect claim—not whether a
cumulative effect claim is cognizable absent a finding of singular error, as Petitioner suggests. Id.
And, the Court agrees with Magistrate Judge Reid that the state court’s determination that there
was no cumulative error was not unreasonable because there was no singular error. See R&R at
30. Therefore, claim 18 fails on the merits.
In claim 22, Petitioner alleges that his trial counsel (prior to him deciding to proceed pro
se) was ineffective because counsel incorrectly advised him that there was no “involuntary
intoxication” defense under Florida law and failed to investigate the defense despite the evidence
demonstrating its applicability. Am. Pet. at 20. In the R&R, Magistrate Judge Reid finds that it
was not unreasonable for the state court to determine that Petitioner failed to demonstrate any
prejudice as to this claim, as he successfully moved to change his plea to not guilty by reason of
insanity and moved for the appointment of an expert related to this defense while proceeding pro
se. R&R 31-32. Petitioner objects to this finding on the grounds that he was not able to
successfully move to change his plea or move for the appointment of an expert. Objs. at 23-25.
However, the record shows that Petitioner, while proceeding pro se, filed a Notice of Intent to Rely
on Insanity Defense, which is required to present evidence of this defense at trial. (ECF No. 34106) at 14; see Fla. R. Crim. P. 3.216(b). Moreover, Petitioner filed a Motion for an Appointment
of Expert, which the state court granted. (ECF No. 34-106) at 16. Therefore, as Magistrate Judge
Reid finds, it was not unreasonable for the state court to determine that Petitioner has not shown
he was prejudiced by his counsel’s failure to inform him of this defense because Petitioner, while

10

Case: 4:17-cv-10027-KMM

Document #: 81 Entered on FLSD Docket: 03/30/2020

Page 11 of 14

proceeding pro se, took the steps necessary to present this defense at trial. Accordingly, claim 22
fails.
In claim 23, Petitioner alleges that his trial counsel was ineffective because his counsel did
not move to suppress documents seized during an unlawful search of Petitioner’s pre-trial jail cell.
Am. Pet. at 21. The state court found that Petitioner did not show ineffective assistance or
prejudice as to this claim because trial counsel moved for the documents to be inspected in camera
and any privileged documents were returned to him. (ECF No. 34-106) at 6-7. Further, the state
court found that Petitioner could have filed a motion to suppress these documents while acting pro
se. Id. at 7. In the R&R, Magistrate Judge Reid finds that the state court’s reasoning was not
unreasonable in determining “that counsel’s motion for in camera inspection [was] the equivalent
of a suppression motion.” R&R at 33.
In the Objections, Petitioner argues that the state court did not determine that the motion
for in camera inspection was equivalent to a suppression Motion. Objs. At 25-26. Although the
Court agrees with Magistrate Judge Reid that the state court’s decision as to this claim does not
warrant habeas relief, the Court notes that the state court did not explicitly find that the motion for
in camera inspection and a motion to suppress are “equivalent,” as set forth in the R&R. R&R at
33. Rather, the state court’s determination turned on the following factual determinations taken
together: (1) defense counsel immediately moved for in camera inspection and the privileged
documents were returned, (2) Petitioner could have filed a motion to suppress while proceeding
pro se, and (3) the state’s alleged failure to provide all documents to the state court during the in
camera inspection is conduct that would be attributed to the state, and not defense counsel, and
should have been raised on direct appeal. (ECF No. 34-106) at 6-7. The Court finds that this was

11

Case: 4:17-cv-10027-KMM

Document #: 81 Entered on FLSD Docket: 03/30/2020

Page 12 of«14

not an unreasonable determination of the facts and that Petitioner’s remaining objections as to this
claim are without merit. See Objs at 25-26. Therefore, claim 23 fails.
In claim 24, Petitioner alleges that his counsel was ineffective for failing to present
evidence of four mitigating factors at sentencing. Am. Pet. at 22. As to the first three mitigating
factors, the state court found that they would not have been received during sentencing because
they are “not cognizable at a sentencing for a non-capital offense,” and therefore Petitioner’s
ineffective assistance of counsel was without merit. R&R at 34 (citation omitted). Because this
is an interpretation of state law, Magistrate Judge Reid recommends that the Court defer to the
state court’s finding. Id. Additionally, as to the fourth mitigating factor, Magistrate Judge Reid
finds that the state court’s determination that Petitioner had not shown remorse was not an
unreasonable determination of the facts. Id. at 25. This Court agrees, and finds that Petitioner’s
objections are without merit. See Objs. at 26-27. Therefore, claim 24 fails.
In claim 26, Petitioner alleges that his counsel was ineffective for failing to locate and
depose the two victims in the case. Am. Pet. at 25-26. However, the state court found that the
record reflected that the victims could not be located for depositions, and Petitioner did not make
the requisite showing that they were available to be deposed. R&R at 36. Further, the state court
noted that Petitioner could have deposed these individuals when representing himself but did not
do so. Id. Magistrate Judge Reid finds that these factual determinations were not unreasonable.
Id. at 36-37.
Petitioner objects arguing that the deposition subpoenas were not returned unserved, but
rather were served upon the State’s Attorney’s office. Objs. at 28. However, regardless of whether
the victims were served with the deposition subpoenas, the Court agrees with Magistrate Judge
Reid that the state court’s determination was not unreasonable in light of defense counsel’s attempt

12

Case: 4:17-cv-10027-KMM

Document #: 81 Entered on FLSD Docket: 03/30/2020

Page 13 of 14

to serve and depose the victims and the fact that Petitioner could have later deposed the victims
while proceeding pro se. Therefore, claim 26 fails.
In claim 27, Petitioner alleges that trial counsel, appellate counsel, the court, and the State
collectively violated his right to a fair trial. Am. Pet. at 26. Magistrate Judge Reid finds that the
state court’s determination that there was “no accumulation of errors” was not unreasonable. R&R
at 37. This Court agrees. Therefore, claim 27 fails.

D.

Petitioner’s Remaining Objections
As an initial matter, many of Petitioner’s objections do not identify the specific reasons

why the Court should decline to adopt the R&R other than expressing disagreement with the
conclusion. See, e.g., Objs. at 16 (“The Magistrate ... erred in stating that Claims 20, 21, and 25
are [pjrocedurally [bjarred. Each presents a clear U.S. Constitutional Violation Claim, and are not
State Claims couched in Federal Claims.”). The Court need not address these arguments, as they
do not constitute specific objections requiring a de novo review. See Macort, 208 F. App’x at 784.
Further, many of the remaining arguments that Petitioner makes in the Objections relate to
his allegation that Magistrate Judge Reid “overlooked” certain arguments that he asserted in his
Reply. See, e.g., Objs. at 6 (“It is clear that the Magistrate overlooked these arguments in the
Traverse/Reply.”); 16-17; 23 (“[T]he [Petitioner defers to the argument in his Traverse/Reply . . .
that was obviously not considered by the Magistrate.”); 29. This is not a proper objection. First,
simply because Magistrate Judge Reid did not cite the Reply in the R&R does not mean she did
not consider the arguments made therein. Second, Petitioner may not reassert those arguments
already made within the Reply as objections. See Marlite, Inc. v. Eckenrod, No. 10-23641-CIV,
2012 WL 3614212, at *2 (S.D. Fla. Aug. 21, 2012) (noting that “[i]t is improper for an objecting
party to” file objections to a report and recommendation “which are nothing more than a rehashing

13

Case: 4:17-cv-10027-KMM

Document#: 81 Entered on FLSD Docket: 03/30/2020

Page 14 ot44

of the same arguments and positions taken in the original papers submitted to the Magistrate
Judge” because “parties are not to be afforded a second bite at the apple when they file objections
to [an] R & R”) (citation and internal quotation marks omitted).
Finally, the Court finds that Petitioner’s remaining objections, including those related to
the “condensed format” of the factual background, Objs. at 7, to the procedural mechanism used
to appeal certain claims, id. at 8-9, and reference to the supporting memorandum of law, reference
to the Petition as “unwieldy”, id. at 11, are meritless or otherwise relate to characterizations or
statements in the R&R which are not relevant to the adjudication of the underlying claims.
Therefore, the Court declines to address Petitioner’s remaining objections.
Accordingly, UPON CONSIDERATION of the Amended Petition, the R&R, the pertinent
portions of the record, and being otherwise fully advised in the premises, it is hereby ORDERED
AND ADJUDGED that Magistrate Judge Reid’s R&R is ADOPTED IN PART. The Amended
Petition is DENIED and no certificate of appealability shall issue.4 The Clerk of Court is instructed
to CLOSE this case. All pending motions, if any, are denied as MOOT.
DONE AND ORDERED in Chambers at Miami, Florida, this 30th day of March, 2020.

K. MICHAEL MOORE
UNITED STATES CHIEF DISTRICT JUDGE

c: All counsel of record

4 See Brown v. Sec’y, Fla. Dep'tofCorr., No. 5:17-CV-29-MCR-GRJ, 2018 WL 1802567, at *12 (N.D. Fla. Mar. 19, 2018) (recommending denial of a certificate of appealability because there
was “no substantial showing of the denial of a constitutional right” where the petition was mooted
after the petitioner’s release from custody) (citing 28 U.S.C. § 2253(c)(2)), report and
recommendation adopted, No. 5:17-CV-29-MCR-GRJ, 2018 WL 1802555 (N.D. Fla. Apr. 16,
2018).
14

APPENDIX

F
l^cr/r/o/0£^ l5
\ o

o63Ecr/O(05

magistrate's

/A(OA

RtPDfiT"
Recomjuc: (oQATlo aJ

>

'fyp- r

?

HKUVIUEU ro 'OKEECHOBEE
CORRECTIONAL INSTITUTION
ON QgCcvf FOR MAILING
BY Ct 1

*

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
KEY WEST DIVISION
CASH WALLACE PAWLEY
Petitioner,
y.

MARK S. INCH
Respondent

Case No: 17-10027-CIV-MOORE
MAGISTRATE JUDGE REID
OBJECTIONS TO MAGISTRATE S
REPORT AND RECOMMENDATION
-EVIDENTIARY HEARING REQUESTEDINTRODUCTION

On July 12th, 2019, the Magistrate in this matter filed a "Report and
Recommendation" which recommended that petitioner's application for Writ of
Habeas Corpus be denied.
The notice at the conclusion of the Report and Recommendation provided
that within 14 days after the date of service, any party could file written objections
with the court and serve a copy on all parties. The petitioner immediately filed a
Motion for Extension of Time to File Objections within the 14 days.
Petitioner timely files and serves these objections to the Magistrate's Report
and Recommendation.

l

OBJECTIONS
I.
DENIAL OF PRELIMINARY MOTIONS
1. The Magistrate (White) erred in denying leave to file Motion for
Summary Judgment, the Motion for Summary Judgment (White), and
the Motion for Reconsideration of Order Denying Summary Judgment
(Reid).
On or about October 3rd, 2017, petitioner filed a Motion for Summary
Judgment (DE #47) with a Motion for Leave to file a Motion for Summary
Judgment (DE #46). In those, petitioner specifically requested the Court wait until
it could review petitioner's Traverse/Reply (DE #50) that was also in the mail, but
may take longer to arrive, due to its size. The Magistrate (White) did not wait for
the Traverse/Reply (as is necessary to properly determine a Motion for Summary
Judgment on the merits), but instead, on the same day as its arrival (October 3rd,
2017) issued an Order Denying Leave to file Motion for Summary Judgment (DE
#48) and a Order denying the Motion for Summary Judgment (DE #49). This, of
course, is a procedural oddity in and of itself (denying the Motion for Summary
Judgment after denying leave to even file it), but the larger issue is that this would
naturally lead any prudent person to believe that the Motion for Summary
Judgment was not denied on its merits, as it is most likely that it was never even
read. This is why petitioner filed a Motion for Leave to File Motion to Reconsider

the [denial of] Motion for Summary Judgment (DE #64) and a Motion for
Reconsideration of [denial of] Motion for Summary Judgment (DE #65 j and (DE
#66?), which Magistrate Judge (Reid) denied as moot (DE #73), once again never
considering its merits. Due process would required that the Motion for Summary
Judgment be heard and ruled on its merits. (Customarily before disposition of the
Petition for Writ of Habeas Corpus). A de novo review of (DE #49) is warranted.

2. The Magistrate (White) erred in denying (DE #42) petitioner’s Motion
for Mandatory Evidentiary Hearing (DE #38), although in this case he
granted leave to file (DE #41).

On or about September 18th, 2017, Magistrate (White) denied petitioner's
Motion for Mandatory Evidentiary Hearing (DE #38), stating only that "at this
time it does not appear as though a hearing is warranted". This denial was made
before the court had a opportunity to consider petitioner's Traverse/Reply (DE
#50).
Magistrate (Reid) then denied a Motion for Reconsideration (DE #72) of
Motion for Mandatory Evidentiary Hearing (DE #38), under the flawed principle
that she believes that the Supreme Court's decision in Cullen v. Pinholster. 563
U.S. 170 (2011) precludes a federal habeas court from ever holding such a hearing.
This is not what Pinholster inferred at all. Based upon the arguments made in

petitioner's Motion for Mandatory Evidentiary Hearing (DE #38), an evidentiary
hearing, in this case, notwithstanding the granting of Summary judgment, is
warranted and requested. A de novo review of (DE #38) is warranted.

3. The Magistrate (Reid) erred in denying as moot (DE #69) petitioner's
Motion for

Bond

(Release on

Bail

by Release

on

Personal

Recognizance...) (DE #67).
On or about July 15th, 2019, Magistrate (Reid) denied as moot petitioner's
Motion for Release on Bail by Release on Personal Recognizance (DE #67), or in
the alternative, Motion to Hear and Rule.
Although technically, upon Magistrate's ruling (R&R) on (DE #50), a
Motion of this sort would become moot, in the instant case, the Motion for Release
on Bail by Release on Personal Recognizance should be reviewed de novo by the
District Judge base upon these objections necessitating the need for a de novo
review of DE #'s 38, 47, and 50. Release on Petitioner's own Recognizance can
still occur pending final resolution.

4

s

•sinrep ttp9isrmqx3imtl
p9§9Jp §UTp.IB§9J pspnpuoo 9Q pjnOqS JU9Uin3lB SIX|J JO AV9TA9I OAOU Bp y '9SB9
sup m jstx9 siBq pmpgoojd ou XpjrqosqB pip SMoqs XqBDijpods ji sb juomngiB
Slip p9^00|J9A0 9ABq OJ SIB9ddB 9JBIJSl§BJ/^ 9TJX

'(UHBp qOB9 JOJ JT §UTJB9d9J UT

;uBpimp9J gq oj jou sb os £X|d9^/9SJ9ABJjj siq jo uotjdos SuiuinSoq 9ip ojm ‘pgjsixg
SJBq pjTlpOOOld JBip SUOTJI9SSB S(9JBJ§ 9ip JB9J9p OJ SJUgumSlB SIBq pjnp9DOjd
pB p9uiqraoo J9uopp9j)

‘p9|d Xpugpqjns pus ‘sginpgoojd pxiB smbj 9jbj$ jgd

p9JSnBT|X9 X|J9d0id 9I9M SUITBp ||B pip p9UIB|dX9 ST JT 9J9pM pZ ~ l S9§Bd p (0£#

aa) PUB -6817 ‘8LP 'S'n LLP ‘teivej 'A ABiinjAi ‘gag SBsqBjj sms IPV6 SIP u!
JJTTOQ 9JBJ§ 9ip OJ SUITBp [pSUTlOO 9JBJpddB JO 99UBJSTSSB 9AIJ99JJ9TIT] JU9pU9d9pUT
STq §mju9S9id Xq jU9Ui9imb9i u9stibou gjg ‘60S -gq ggp ‘Xpurrj a oso'p 9tp
J9UX 9q JBTp X|d9-p/9SI9ABJX SUJ TIT p9MOqS X|IB9p I9UOTJTJ9d 9TJX ‘np9JSTTBqX9Un 9IB
61

% L\ - Z SUITBp,, l^qj SJ9SSB Xp09JJ09UT 9JBiJSlgBJ\[ 9ip ‘gj oSfed UQ

*suiiep pajsneqxann
9JB 9aaqj jeqj nopeuinuapp sji a; p9JJ9 (pph) 9JBJjsi2bj\i aqx *1

si\uvi3 aiisiivHxavLi
n

IIL
PROCEDURALLY BARRED CLAIMS
1. The Magistrate (Reid) erred in its determination that there are
procedural^ barred claims.
On page 21, the Magistrate incorrectly asserts that Claims 20-21 and 25,
although exhausted, "are otherwise barred from federal habeas review because they
present no federal constitutional question".
Petitioner’s Traverse/Reply specifically addresses this issue in each of the
corresponding claims, and clearly shows that these three claims raise a federal
constitutional violation(s) that is much more than "Petitioner attempting] to create
a federal constitutional claim from what is clearly a state law issue by simply
invoking the broad principle of due process".
It is clear that the Magistrate overlooked these arguments in the
Traverse/Reply. Thus, a de novo review of these claims should be conducted by
the district judge.

6

IV.
OTHER ERRORS BY PAGE NUMBER
Page_2: The Factual Background, as written, in it’s condensed format, does not
accurately portray the events (Like the Traverse/Reply does), and thus creates a
horribly inaccurate contextual layout of the events.

Page_3: The Magistrate's reference to petitioner being "a "prolific" pro se filer
who has been barred by both the State Circuit Court and intermediate (sic) state
appellate courts..." is irrelevant to any of the claims set before this court for
review, and can easily be construed - by its mere existence in this Report and ’
Recommendation - as bias. Furthermore Pawley v. State. 217 So.3d 128 (Fla. 3rd
DCA 2017) is only a 'show cause" order, not an order barring any future pro se
filings.
Petitioner is well aware that the federal courts do not adhere to the age-old
adage "if at first you don't succeed, try, try again", as it may be good advice in
many matters, but in the judicial system, the principle of finality requires parties to
bring whatever claims are available against their adversary or risk losing them.
Bennett v. QcWen Loan Servicing, LLC. 2016 U.S. Dist. LEXIS 195158 (N.D.
GA. 2016). Here, the petitioner did not, as many pro se filers do, re-raise the same
claims over and over again in multiple motions, petitions or appeals. What he did

do, so as not to "risk losing them", was to raise multiple claims in limited motions
and petitions (e.g. - i 1 claims m ins postconviction 3.850 motion, 25 claims of
ineffective assistance of counsel in his 9.141(d) habeas corpus petition and
approximately 10 claims in his Rule 3.800(a) motions to Correct Illegal Sentence.
This was the extent of his "full round of postconviction remedies". However,
because petitioner was also involved in many civil issues stemming from this one
arrest (Domestic Violence Injunction, Lawsuit against petitioner by landlord for
remainder of annual lease, theft of petitioner's entire business equipment by a
competitor, civil rights violations against petitioner while in custody, etc.), it
appears that petitioner is a "prolific pro se filer". He is not. (Note: No action was
taken by the Florida Dep't of Corrections regarding any disciplinary action).

Page 5: Contrary to the Magistrate's Report, the petitioner did not file a Petition for
Writ of Certiorari to the U.S. Supreme Court instead of filing an appeal to the
Florida Supreme Court, because contrary to Magistrate's statement earlier that the
District Courts of Appeal in Florida are "intermediate" courts, they are not. In the
late 1950's due to population growth resulting in a mass influx of criminal and civil
appeals, the Florida Supreme Court - whom handled all appeals in the State prior to
that - created the Five (5) District Courts of Appeal as arms of the Supreme
Court, to take the burden off of the Supreme Court. The actual Supreme Court
then took on different roles (such as an Arbitration Court if two DCAs decisions
8

conflict, or to hear Death Penalty Appeals). However they are not a "higher" court
than the DCAs. And, as such, Fia. R. App. Proc. 9.030(a)(2)(A) only allows a
defendant to petition the FL. Supreme Court to hear his case if he received a
written opinion by a DCA that directly conflicts with another DCA's
decision/opinion on an identical issue, Wells v. State, 132 So.3d 1110 (Fla. 2014),
or to certify a question of great public importance. And since petitioner did not
receive a written opinion at all in Pawley v. State, 166 So.3d 292 (Fla. 3rd DCA
2015), on direct review, he could not petition the Florida Supreme Court for
review. That would have been frivolous and an abuse of the judicial process.
Thus, his only option was to Petition the United States Supreme Court on
Certiorari - which he did.

Page 15: Cullen v. Pinholster, 563 U.S. 170, 181 - 185 (2011) does not apply here
for claims 2 - 17 and 19, that were the "underlying" claims of constitutional
violations brought before the State court in petitioner's State Habeas Corpus
Petition under Rule 9.141(d), because the petitioner, through that very filing of
ineffective assistance of appellate counsel, properly, per State Rules (9.141)
presented the "underlying" claims for consideration by the same Appellate Court
that heard his original direct appeal. See, Scott v. Dugger, 636 F. Supp. 1488 (S.
D. Fla. 1988), and therefore petitioner gave "cause" for any procedural default (if
any exists). See, Williams, 529 U.S. at 444; F.H.C.P.P., Part VII, Vol. 2, §32.3.
9

This also applies to all the other claims too (#'s 1, 18, 20 - 27). And because
£>tate Rule 3.850(f) requires an evidentiary hearing if the claim on 3.8d0 is not
conclusively refuted by the record; Padron v. State, 827 So.2d 393 (Fla. 2nd DCA
2002); Ciambrone v. State. 128 So.3d 227 (Fla. 2nd DCA 2013); Filipkowski v.
State. 252 So.3d 278 (Fla. 2nd DCA 2018); Tompkins v. State, 872 So.2d 230 (Fla.
Sup. Ct. 2003) ("when the trial court denies relief without conducting an
evidentiary hearing, "this court must accept [the defendant's! factual allegations as
true to the extent they are not refuted by the record"."); Rose v. State. 774 So.2d
629, 632 (FL. Sup. Ct. 2000); Valle v. State. 705 So.2d 1331, '1333 (FL. Sup. Ct.
1997) ("Under Rule 3.850, a movant is entitled to an evidentiary hearing unless the
motion and record conclusively show that the movant is entitled to no relief'.);
Harich v. State. 484 So.2d 1239, 1240 (FI. Sup. Ct. 1986) ("Thus we must treat the
allegations as true except to the extent they are rebutted conclusively by the
record") Id. at 1241; the State Court's decision is not based upon the full panoply of
rights to present such evidence - since the State Court refused to allow the
petitioner to bring such evidence in an Evidentiary Hearing. Thus, the federal
court should hold an Evidentiary Hearing, as the State did not afford the petitioner
such an opportunity to present evidence at one. Pinholster. in no way precludes
this federal court from holding an Evidentiary Hearing. It only precludes the
federal court from reiving on new evidence presented that would "Fundamentally

10

Change” the petitioner's claim. The purpose is to eliminate review of claims that
the petitioner did not develop, or raise [in the State Court] untii he filed his federal
habeas corpus petition. This is not the case here. The 11th Circuit, post-Pinholster.
stated in Hammonds v. Allen, 849 F.Supp.2d 1262 (11th Cir. 2012) that the legal
standard for holding an Evidentiary Hearing has not changed. Id at 1300. That 28
U.S.C. §2254 (e)(2) has [an] exception:

Indeed, a district court can hold an

evidentiary hearing if the petitioner shows: (A) the claim relies on

(B) the facts

underlying the claim would be sufficient to establish by clear and convincing
evidence that but for Constitutional error, no reasonable fact finder would have
found the applicant guilty of the underlying offense (due to Involuntary
Intoxication in the instant case).
§3.5[b].

See, F.H.C.P.P. §3.2; Mandatory Hearings

See also, generally. Motion for Mandatory Evidentiary Hearing, (DE

#38), passim. An Evidentiary Hearing is requested.

Page 16: The Magistrate claims the "Amended Petition is unwieldy". However,
@pg. 2 the Court states that it has "reviewed the amended petition, as
supplemented and supporting memorandum of law (collectively "Amended
Petition")".

However, see generally DE #16 where Magistrate (White) - her

predecessor - struck the "Memorandum", so it should not have been considered.
The "Amended Petition" (DE #12) was far from "unwieldy" (even with 27 claims),
as it was neatly packaged into just twenty-nine (29) total pages.
11

The State’s

response, however, was 140 - pages, and so chock-full-of errors, it necessitated a
2 /0-page (handwritten) iraverse/Kepiy by the petitioner to cieariy rebut the State's
errors in facts and law (DE #50). So, it appears that the "collective" Amended
Petition the Magistrate refers to was improperly considered (the Memorandum
attached to it). Thus, she did not have an accurate picture of the claims presented,
and procedurally erred, requiring a de novo review of the entire petition (including
the most important document of all - the Traverse/Reply, which obviously was not
considered at all). See Traverse/Reply, (DE #50).

Page 17; CLAIMS HISTORY - The Magistrate erred in stating that Claim 2 of
(DE #12) was [only] exhausted in petitioner's 3.800 Motion to Correct Illegal
Sentence. It was also exhausted in his Ineffective Assistance of Appellate Counsel
(Rule 9.141(d)) Petition, (as Appellate Counsel should have raised this meritorious
claim), the appeal (1D16 - 2097) and on postconviction, as a no jurisdiction claim.
It was also raised on Certiorari to the United States Supreme Court (16 - 5611).

Page 18; The Magistrate erred in claiming that claims 2-17 and 19 were not
exhausted (Note: Claim 2 should not be grouped into this set of claims as stated in
the last section/paragraph).

All of the "Underlying" claims of Constitutional

violations that gave rise to the ineffective appellate counsel claims in petitioner's
state habeas corpus petition brought under Rule 9.141(d) - the correct procedure

12

for doing so - became "exhausted" when presented. See, generally, Traverse/Reply
(pages i - 24) for full argument.
Of first note, the Magistrate does not cite to any authority (Case law, Statute,
or Rule) that supports or mandates that underlying claims raised as predicates to
ineffective assistance of appellate counsel claims properly raised under State
Procedural Rule (in this case Fla. R. App. Proc. 9.141(d)) are unexhausted. Rule
9.141 is not a "collateral" attack procedure in the trial court, but rather is a remedy
sought in the Appellate Court that heard the [direct review] appeal, to bring before
the court those very claims that should have been raised by appellate counsel.
Smith v. State. 400 So.2d 956, 960 (Fla. 1981). (Note: Florida does not allow a
defendant to brief his own direct appeal - unless of course appellate counsel files
an "Anders" brief, which was not done here). Contrary to the Magistrate, it is not
an "attempt[ ], pro se, to "resurrect" them [knowing the claims were otherwise
procedurally barred under review under Florida Law"]. Although, the Magistrate
is correct that they are procedurally barred in other vehicles, thus supporting that
appellate counsel is ineffective for not raising them on direct review. This is why
Rule 9.141(d) exists - to specifically provide for such remedy (an opportunity to
present claims to the D.C.A. that should have been presented initially by counsel).
Thus, no procedural default occurs once the petitioner uses 9.141(d) to raise the
underlying claims. See, Scott v. Dugger, 686 F. Supp. 1488 (S. D. Fla. 1988)

13

("The original petition raised 29 discrete issues and the recent amendment added
two others,

t he respondent had moved to dismiss the amended petition on the

grounds that it presented a mixed petition containing both exhausted and
unexhausted claims under Rose v. Lundy, 455 U.S. 509, 102 S.Ct. 1198 (1982).
The Court rejected this motion on August 29th, 1983, holding that Scott had
exhausted all claims in his amended petition, including certain claims which he had
raised in his Florida habeas petition as forming the basis of his claim of ineffective
assistance of appellate counsel.") In other words, the "underlying" claims became
exhausted in Scott, just as they should be considered exhausted in the instant
petition. See also, Sims v. United States, 71 F.Supp.2d 874, 877, (N. D. Ill. 1999);
United States v. Nyhuis, 211 F.2d 1340, 1344 (11th Cir. 2000).
Furthermore, "Ineffective Assistance of [appellate] Counsel may satisfy the
cause exception to a procedural bar if the claim of Ineffective Assistance has
merit". U.S. v. Nyhuis, supra, at 1344; Holden v. United States, 2018 U.S. App.
LEXIS 26829 (11th Cir. 2018); Martinez v. Ryan, 566 U.S. 1, 11 - 14, 132 S.Ct.
1309, 182 L.Ed.2d 272 (2012) ("Ineffective assistance of counsel may constitute
cause if the underlying claim is "substantial", meaning that it "has some merit");
Trevino v. Thaler, 569 U.S. 413 (2013). Id at 422 ("Second, ineffective assistance
of counsel on direct appellate review could amount to "cause", excusing a
defendant's failure to raise (and thus procedurally defaulting) a constitutional

14

claim"). See, generally, pages 1-24 of Traverse/Reply (DE #50) for further legal
argument applicable to the instant case, i'his procedure is the only way to raise
such claims in the State.
Also, contrary to the Magistrates report, at pg. 20, petitioner throughout his
Traverse/Reply has clearly shown evidence is available (that was also available to
the State court), but was not presented at trial (due to the trial judge’s violation of
petitioner's 6th Amendment right to Compulsory Process) - See, instant Claim One
- of "actual innocence" as contemplated in Murray v. Carrier, 477 U.S. 478 (1986).
See, generally, Traverse/Reply, (DE #50) pages 1 - 24. Also, they are ultimately
"sufficiently pled" as Strickland claims in Claim #18. (Combination of all claims
that was raised as Claim #25 in his State Habeas).
The Rule 9.141(d) filing serves also as a showing of "cause and prejudice"
under Carrier @489. See, Jeune v. Jones, 2017 U.S. Dist. LEXIS 138853 (S. D.
Fla. 2017) (even when a claim has been procedurally defaulted in the State Courts,
a federal court may still consider the claim if a State Habeas petitioner can show
ether (1) cause for and actual prejudice from the default; or (2) a fundamental
miscarriage of justice. Maples v. Thomas, 565 U.S. 266, 132 S.Ct. 912, 922
(2012); In Re Davis, 565 F.3d 810, 821 (11th Cir. 2009)). For a petitioner to
establish cause, the procedural default "must result from some objective factor
external to the defense that prevented [him] from raising the claim and which

15

cannot be fairly attributable to his own conduct". McCoy v. Newsome, 953 F.2d
1252, 1258 (11th Cir. i992) (quoting Murray v. Carrier, 4/7 U.S. 4/8, 488, 106
S.Ct. 2639). To establish prejudice, a petitioner must show that "the errors at trial
actually and substantially disadvantaged his defense so that he was denied
fundamental fairness". Id. at 1261 (quoting, Carrier, 477 U.S. at 494, 106 S.Ct.
2639), or in absence of cause and prejudice, the miscarriage of justice exception.
Petitioner Wxs &bou)n both in his Traverse/Reply, (DE #50), at pgs. 1 - 24. See
also, Foster v. Thaler, 369 Fed. Appx. 598 (5th Cir. 2010). Id at 601, 603. A de
novo review is warranted.

Page 21: The Magistrate (Reid) erred in stating that Claims 20, 21, and 25 are
Procedurally Barred. See, generally, Argument on each claim at (DE #50). Each
presents a clear U.S. Constitutional Violation Claim, and are not State Claims
couched in Federal Claims. A de novo review is warranted.

Page 22: The Magistrate erred in her analysis that petitioner's claim was not truly
a violation of due process under the U.S. Constitution (5th and 14th Amendments),
stating incorrectly that "Petitioner attempts to create a federal constitutional claim
from what is clearly a state law issue by simply invoking the broad principle of due
process". Anything other than a cursory review of this claim (and Claims 21 and
25), especially the arguments made in the Traverse/Reply (DE #50) for each of

16

these claims, will show that this is far from what the petitioner did. However, to
see this, one must actually read, evaluate, and consider the traverse/Keply tL)b
#50). See also, Crawford v. Lockhart, 975 F.2d 1347 (8th Cir. 1992) (A State's
failure to abide by its own laws, however, may violate due process if the failure
causes a deprivation of liberty) - which it does/did here.

See also, Hicks v.

Oklahoma, 447 U.S. 343, 346, 100 S.Ct. 2227 (1979). Petitioner satisfied Picard v.
Connor, 404 U.S. 270, 275 (1971) in his Traverse by "includfing] [references] to a
specific constitutional guarantee, as well as a statement of the facts the petitioner
believes entitle him to relief'.

See, generally. Claims 20, 21, and 25 in

Traverse/Reply (DE #50). A de novo review is warranted.

Page 23: The Magistrate erred in stating in response to Claim 21 that "This claim
challenges the State Court's application of its sentencing laws, and as a result, is
not cognizable on federal habeas review". This is not a claim that the State "failed
to adhere to its own sentencing procedure", but is a specific claim that the State, in
order to satisfy due process under the 5th and 14th Amendments, and not run afoul
of an 8th Amendment violation, must adhere to its own laws and Rules. See,
Crawford v. Lockhart. 975 F.2d 1347 (8* Cir. 1992); Traverse/Reply (DE #50),
Claim 21. A de novo review is warranted.

17

Page 24: The Magistrate (Reid) erred in her determination that agreed with the
trial court judged incorrect determination that Brady violations "could be a matter
for direct appeal” as a procedural bar.

The Florida Supreme Court clearly

disagrees with this erroneous assertion in Felder v. State, 198 So.3d 951, 953 (FL.
Sup.Ct. 2016).

Where it opined, ”We observe that the postconviction court

incorrectly concluded that a Brady violation is a trial court error that cannot be
raised in a motion for postconviction relief', quoting Wickham, 124 So.3d 841,
851 - 52 (Fla. 2013), and "This, Court has explicitly recognized that a Brady
violation ”is cognizable in a rule 3.850 motion”, quoting Gay v. State, 995 So.2d
541, 543 (Fla. 2nd DCA 2008).
Therefore, the State trial court's determination was clearly an "unreasonable
determination of the facts [and law]”, as there is no such procedural bar for Brady
claims. Therefore, in his Traverse/Reply, the petitioner demonstrated "objective
cause for his [alleged] failure to properly raise the claim in the State Forum and
actual prejudice resulting from the error". See, Traverse/Reply (DE #50) at Claim
25. It must be note that this issue was also first exhausted in Petitioner's post-trial
"Motion for New Trial' and in his Rule 9.141(d) Petition for Writ of Habeas
Corpus alleging that appellate counsel should/could have raised it on direct appeal.
Thus, it was fully exhausted, contrary to the Magistrate's statement, "nor has he
explained why his Brady claim, the failure of the prosecution to provide him with

18

the court-appointed psychologist's report prior to trial, could not have been made
on direct appeal", it was fully explained in the iraverse/Kepiy ^Db #50) at Claim
25.
The Magistrate's statement, at pg. 25, "Therefore, the issue could have been
made on direct appeal [and in compliance with State law]" is partly true, in that
appellate counsel "could" have raised it on direct appeal, but that is not a bar to
raising it on postconviction. See, Felder v. State, supra. The prejudice suffered
is/was fully laid out in petitioner's Traverse/Reply (DE #50) at Claim 25. A de
novo review is warranted.

Page 25: Claim One (pg. 26) - The Magistrate completely misconstrues the claim
that was raised on petitioner's Direct Appeal (@Claim II; Direct Review Brief).
The Magistrate states "Petitioner's first claim for relief is that the trial court
violated his right to compulsory process and due process when it provided "faulty
and incorrect (civil) subpoenas to the defendant, pro se, in the jail which did not
have any place to put the trial date (or 'standby') on them". This is not even
remotely similar to the claim presented, thus, the review and recommendation on
this claim is not on point at all. Again, the Magistrate here simply regurgitates the
State's argument (on postconviction and in their Answer to this habeas petition),
rather than independently responding by reviewing the "actual" facts in the original

19

Direct Appeal Brief on Appeal, the Motion for Rehearing, and in the
Iraverse/Keplv (Dt #50) at Claim One.
The claim is not that the Clerk of Court provided the wrong subpoenas (civil
ones) that did, in fact, have absolutely no place to write in a date or time (to
appear) on them.

This is just what "sparked" the entire issue of the judge's

violation of compulsory process, and is the defense to the State's ridiculous
assertion that it was "invited error" (by the petitioner). The claim is clearly that the
Clerk went to the judge (Mark H. Jones) personally (ex parte) and told the judge
about the "missing dates and times", weeks (not days) before the trial and asked
him what "she" should do about "her" error (in not providing the petitioner with the
correct criminal trial subpoenas and not providing a space anywhere on the
subpoenas for the petitioner to be able to insert a trial date and time). The judge
was required at this point to vindicate the constitutional rights of the petitioner,
specifically to compulsory process under the 6th Amendment (which is not the right
to subpoena witnesses, but the right "to have witnesses appear and testify in his
defense"). The judge is the one that then told the Clerk of Court "to do what she
would normally do" and "if the subpoenas don't get served, that is the defendant's
fault because he decided to go pro se". Rather than send the 68 copies (34 total
subpoenas) back to the petitioner in the county jail (or actually send the correct
criminal subpoenas to him) to have the petitioner write "standby" somewhere on

20

the subpoenas (as it would have been impossible to put an exact date (to appear) on
them since the State listed forty (40) "Category - A?: witnesses on their list, the
Clerk simply "certified'' them (which means she is stating they are correct) and
then filed them away, rather than returning them to the petitioner at the county jail
or even returning them to the petitioner in open court the 4-5 times he appeared in
court after this occurred, but before trial. The Magistrate incorrectly adopts the
State's falsity that the petitioner waited until (3) days before trial to attempt to
serve the subpoenas. If the facts in the Traverse - pointing to the proof in the
record - had been considered here, the Magistrate would have easily seen that it
was not (3) days before trial, but actually (3) weeks before trial (which is plenty of
time for service). The trial was on September 18th, 2013. The subpoena request
was made on August 29th, 2013 (21 days earlier). This is all clearly laid out in the
Traverse/Reply (DE #50) at Claim One.

It even points the Magistrate to the

request and the faulty subpoenas (in the record). Anyone reading this claim could
easily discern that there "was [absolutely] no reasonable basis for the State Court to
deny relief'. Contrary to the Magistrate's assertion, she could not have "reviewed
the record", as all of the facts presented in the Traverse/Reply would have been
clearly revealed. Rather, by her continued references to DE #34, but not to DE
#50, it is obvious that she has simply adopted all of the errors (by the State and
Court) without review of the Traverse/Reply that clearly and irrefutably refutes all

21

the facts with references to the exact portion(s) of the record that prove each and
every fact.
The petitioner's references to the Clerk’s errors (wrong subpoenas issued and
sent to petitioner, no place to put a date/time or "standby", failure/refusal to return
them to the petitioner to correct her errors, and her refusal/failure to have them
served by the Sheriffs Office - as Florida Law does not allow a pro se litigant to
"certify" or "serve" his own subpoenas because he's not an officer of the court) are
only used to clarify how it all began and ended, but is not the claim itself. The
judge had the opportunity weeks before trial to make sure that petitioner's U.S.
Constitutional rights were vindicated, but chose not to. Instead, remaining silent never informing petitioner of the errors that the judge now knew about along with
the Clerk and Prosecutor. Therefore he had knowledge weeks in advance that it
would not be a fair trial, but rather a "Kangaroo Court" - (Black's Law Dictionary A spurious legal proceeding where the outcome is predetermined).
This is a far cry from the Magistrate's skewed take on the claim (that it was
solely a claim about improper assistance from the Clerk). A de novo review is
warranted.

Page 28: Claim 18. This Claim ties Claims 2-17 and 19 together also, as it is the
last claim made in petitioner's State Habeas Corpus. (Ineffective Assistance of
Appellate Counsel) as a "Cumulative" argument.
22

The Magistrate (Reid) erred in her incorrect legal standard, principle and/or
standard of review, regarding "Cumulative" error, t here need not be even a single
error by counsel that rises to the constitutional level of ineffective assistance of
counsel [under the 6th Amendment] for there to be cumulative error found.
See, DeShields v. Shannon, 338 Fed. Appx. 120, 2009 U.S. App. LEXIS
15410 (3rd Cir. 2009) ("Cumulative effect of counsel's failures" amounted to
ineffective assistance even if failures *Tf|aken individually, "would" perhaps be
insufficient for us to conclude that his performance was constitutionally
deficient").
Petitioner further contends that a de novo review of Claims 2-17 and 19
will clearly show that Appellate Counsel was deficient/ineffective in not raising
any one or more of the individual claims as well as deficient "Cumulatively". A de
novo review is warranted.

Page 30: In regards to the Magistrate’s multiple errors regarding Claim 22. So as
not to be redundant and "unwieldy" in his objection, rather than attack each
individual error again (because they are the same errors the State made in their
Answer), the petitioner defers to the argument in his Traverse/Reply (DE #50),
Claim 22, that was obviously not considered by the Magistrate.
However, it needs to be addressed that contrary to the Magistrate's Report @
pg. 30, the petitioner actually was not able to "successfully change [ ] his plea".
23

Although he filed a 'Notice of Intent to Rely on Insanity", the court failed to hold a
hearing on the change of plea, failed to instruct the jury that the petitioner has pied
"Not guilty by reason of insanity", and actually incorrectly told the jury that the
[defendant] has pled "not guilty" - not giving the option even for the jury to find
petitioner "Not guilty by reason of [temporary] insanity", (by involuntary
intoxication) (in the erroneous jury instructions and erroneous verdict form). See,
instant Claim #6. Petitioner also never "moved for an order [ ] appointing experts
(sic) to conduct a mental examination". That was required to be sua sponte (Rule
3.216 and Ake v. Oklahoma) by the court upon the only requirement of filing the
'Notice of Intent to Reply upon Insanity Defense' filed by the Petitioner. The Court
appointed one for the State, but never appointed one (or two) for the petitioner
until one day before trial, and only after the petitioner filed a 'Notice of Court's
Failure to Appoint [Mental Health! Expert(s). The only reason that petitioner was
unable to present that defense at trial was because of the late appointment of the
defense expert (although the court appointed a State Expert weeks before trial), and
because the court then violated petitioner's 6th Amendment right to Compulsory
Process (Claim #1); thus noone appeared (out of 34 witnesses subpoenaed) to
testify on behalf of the petitioner at trial (including the Experts). And to say that a
person "cannot be prejudiced by the claimed failure of counsel to [investigate the
applicability of and] prepare/present a defense" [because the] "Petitioner failed to

24

assert [that defense] when given a chance {pro se] to do so", is nothing short of
iudicrous. Counsel's deficiencies are not dependent soiely on whether a defendant
can correct those deficiencies himself later. See Traverse, (DE #50), Claim 22.
Petty v. McCotter, 779 F.2d 299, 301 - 302 (5th Cir. 1986). A de novo review is
warranted.

Page 32: Contrary to the Magistrates Report, it was not "over 50 pages". It was
over 500 (five-hundred) pages of legal documents taken by the State prosecutor.
Again, as clearly laid out in the Traverse (DE #50), Claim 23, the "Emergency
Motion for In-Camera Inspection" was immediately withdrawn by defense counsel
(at the hearing on the day of the illegal search and seizure), thus the Court never
"granted the motion for in-camera inspection". Also, at no time did the Court
' [find] that this action was the functional equivalent of a suppression motion" (sic).
Whether petitioner later, after three (3) different lawyers all failed to file a motion
to suppress, "could have filed for a motion to suppress" is irrelevant and does not
negate counsel's ineffectiveness (for not doing so for over 6/2 months). However,
although petitioner, pro se, did not file a motion to suppress (in the criminal case),
he did, in the alternative, file a 'Motion To Dismiss' on the same grounds
(illegal/unconstitutional search of petitioner's pre-trial jail cell and seizure of over
500 pages of documents including Attomey-client-privilege material - including
Discovery, Discovery Notes, Litigation Strategies, Letters to and from Attorney,
25

etc.)- The Court refused to hear that motion. See, Claim Four. Whether the State
withheld most of the documents from "inspection" is not even remoteiy the claim
raised. That is only a factor within the 4th and 6th Amendment Claim. A de novo
review is warranted.

Page 33: Contrary to the Magistrate’s Report, the postconviction court did not
apply any State law to resolve the first three (3) mitigating factors. There is no .
such State law, State Rule or State Case Law that provides that these mitigators are
"not cognizable at a sentencing for a non-capital offense”, and the State Court
provided no such authorities] because this was simply a self-serving
” fictitious ’’reason for the State Court to deny relief on this claim. And this was not
a State Law Claim; it was a 6th Amendment ineffective assistance of counsel claim
- plain and simple.
As for the "final" factor (4th mitigator), the Magistrate's determination that
petitioner had/has not shown remorse is again a determination made without
reviewing the Traverse/Reply (DE #50), Claim 24, where the Petitioner clearly
shows the Court in the record where he has shown remorse for the accident that
occurred as a direct result of the victim's felonious actions (surreptitiously giving
the petitioner a 6-times overdose of Zolpidem-Tartrate, trade named "Ambien").

26

The Magistrate’s references here are misplaced:
1. .Petitioner refers to the victim(s) as "alleged" because this was a case of
"Involuntary Intoxication" resulting in an accident. Involuntary Intoxication
means there was no mens rea (FLCRIMSUB. §45 and FL. MODEL PENAL
CODE §4.01), therefore it is/was not a crime (without "intent") under
Florida Law. There are no "victims" in accidents.

2. "Kangaroo Court" was used by Petitioner to describe his trial, not the
"victims" and hardly constitutes some sort of lack of remorse, because
petitioner feels that his trial was an unfair one. See, Black's Law Dictionary
- "Kangaroo Court": A spurious legal proceeding where the outcome is
predetermined (because none of petitioner's 34 subpoenas were served, and
everyone except the petitioner knew long before trial that it was not going to
be a fair trial).

3. Since there was no "crime" committed (only an accident), referring to the
incident as "a minor scuffle of some sort" (which is all it truly was), is an
accurate depiction of the event, and plays no role in whether a person can be
remorseful to the fact that the love of his life was injured during that
accident. See, generally, full argument in Traverse/Reply (DE #50), Claim
24. A de novo review is warranted.

27

Page 35: Because in Claim 26, the Magistrate's reasoning is only based on the
State's incorrect assertions and facts - apparently because the Traverse/Reply (DE
#50) was not read and considered - there are several crucial facts that are in error:
As stated clearly in the Traverse,'Reply 1. Petitioner was not required to show/prove that the "victims" were available
for deposition because they were properly served summons to appear.

2. Contrary to the Magistrate's report, the subpoenas were not returned
"unserved" - they, were, in fact, returned "SERVED" (upon the State
Attorney's Office, signed as received by Julie Norwold) just as the Asst.
State Attorney (Val Winter) had instructed the defense to do to serve the two
"victims".

See,

full

argument

and

references

to

the

actual

subpoenas/summons in the record, in the Travers/Reply (DE #50), Claim 26.

It was not the "victims" that were "unavailable" for the depositions, it was
defense counsel (Kuypers) whom failed to appear at those scheduled depositions
(that he himself scheduled and served subpoenas for). Instead, on the very same
day the depositions were to occur, defense counsel filed a 'Motion to Withdraw as
Counsel' (which was also granted that same day). See, Traverse/Reply (DE #50),
Claim 26, for references to the record showing the "served" subpoenas, the ’Motion

28

to Withdraw' and the 'Motion Granting the Withdrawal'. Counsel had no intent to
show up to the depositions.
Furthermore, per State Law, the pro se petitioner (defendant) is not
permitted to "move for depositions" of victims (victims confrontation law) - and
shouldn't have to anyhow, because counsel fails to.
Also, contrary to the Magistrate's Report @ page 37, the petitioner did
"rebut [ ] the factual determination of the State Court by showing that Counsel was
able to procure the victims' attendance at deposition but did not do so". See,
Traverse, Claim 26. Counsel just failed to attend his own scheduled depositions,
instead, on that very same day, dropping petitioner as a client. A de novo review is
warranted.

Page 37: Again, as for a cumulative argument (regarding ineffective assistance of
counsel), see, DeShields v. Shannon. 338 Fed. Appx. 120, 2009 U.S. App. LEXIS
15410 (3rd Cir. 2009).
However, this is not a "cumulative ineffective counsel" claim. This is an
overall, in toto, cumulative claim of ail errors and unconstitutional violations by
the Court, the State (Prosecutor) and the three (3) different counsels. Therefore,
the standard of review is different, and is cognizable on Federal Habeas Corpus.
See, Full Argument in Claim 27 of Traverse/Reply (DE #50). The Magistrate
clearly erred. A de novo review is warranted.
29

M,

CONCLUSION
.based on the forgoing, the Court should reject the Magistrate's
Recommendations, Order an Evidentiary Hearing on one or more of the claims
raised by Petitioner, grant the petition, and order any other appropriate relief.

Dated: August 5th, 2019
Respectfully Submitted,
Cj Cash Wallace Pawley

5*-

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true and correct copy of the foregoing
Objections To Magistrate's Report and Recommendation have been provided to the
Office of the Attorney General, Eric J. Eves, One S.E. 3rd Avenue #900, Miami,
Fla. 33131, by placing it into the hands of prison officials for mailing via U.S.
Postal Service on this

day of

, 2019.

7*

U-'

H ^S
Cash Wallace Pawley DC #K09343
Okeechobee C.I.
3420 N.E. 168th Street
Okeechobee, FL 34972

30

APPEND! X
Wt K ^ 1

\
v £ OTobO,t '5 RePoK 1
RcCoMME^^Tior^ ob3

■^%T y'Tvo'isJ

fE-R. V/RtF

OF

V\a^>c A 5

(f S't

}

R/Pf- e‘

Case: 4:17-cv-10027-KMM

Document #: 68 Entered on FLSD Docket: 07/12/2019

Page 1 of 39

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 17-10027-CIV-MOORE
MAGISTRATE JUDGE REID

CASH WALLACE PAWLEY
Petitioner,
v.

MARKS. INCH i
Respondent.

REPORT AND RECOMMENDATION OF MAGISTRATE JUDGE
Petitioner, Cash Wallace Pawley, has filed a petition for writ of habeas corpus
pursuant to 28 U.S.C.§ 2254 brought by a person in state custody. Petitioner is
attacking the constitutionality of his conviction and sentence for attempted firstdegree murder, aggravated assault with a weapon, and battery in the Sixteenth
Judicial Circuit Court, in and for Monroe County, Case No. 2012-CF-818-AKW.
This Cause has been referred to the undersigned for consideration and report

i

Julie L. Jones is no longer the Secretary of the Department of Corrections. Mark S. Inch is now
the proper respondent in this proceeding. Inch should, therefore, “automatically” be substituted
as a party under Federal Rule of Civil Procedure 25(d)(1). The Clerk is directed to docket and
change the designation of the Respondent.

1

Case: 4:17-cv-10027-KMM

Document #: 68 Entered on FLSD Docket: 07/12/2019

Page 2 of 39

pursuant to 28 U.S.C. § 636(b)(1)(B) and Rules 8 and 10 of the Rules Governing
Section 2254 Cases in the United States District Courts.
The Court has reviewed the amended petition, as supplemented, and
supporting memorandum of law (collectively “Amended Petition”) [DE 12], the
State’s response with supporting exhibits [DE 33], all pertinent portions of the
underlying criminal file, and Petitioner’s Reply. [DE 50]. For the reasons that
follow, the undersigned recommends that the Amended Petition be denied.
I.

FACTUAL BACKGROUND

The Information identified Janice Marie as the victim of attempted firstdegree murder with a weapon, and Lisa Badini as the victim of aggravated assault
with a deadly weapon and battery. ([DE 34-3] at 2). At one point, Ms. Marie had a
romantic relationship with Petitioner and lived with him, but she eventually required
him to move out of her home. ([DE 35-12] at 15). Ms. Marie and Ms. Badini were
friends. Id. at 12. The record reflects that both victims, Ms. Marie and Ms. Badini,
testified and recounted the events that led to the charges at issue here. Id. at 3; [DE
35-13].
Ms. Marie testified that on the night in question, she went out with Ms. Badini
and returned home to find Petitioner sleeping in her backyard on a lounge chair.
([DE 35-12] at 38). Ms. Marie allowed him to sleep inside the home on the couch
but refused to let him in her bed despite his insistence. Id. at 39. In the morning,
2

Case: 4:17-cv-10027-KMM

Document #: 68 Entered on FLSD Docket: 07/12/2019

Page 3 of 39

Petitioner motioned to Ms. Marie as if he would hug her. Id. at 53. Instead of
hugging her, Petitioner pulled out a knife, placed the point of it on her neck as she
screamed, and cut from just under her ear to her collarbone. Id. Ms. Badini explained
that, while she attempted to intervene and help Ms. Marie, Petitioner grabbed her by
the wrist and pointed the knife at her. ([DE 35-13] at 103). Both victims testified
that they fled from Petitioner. ([DE 35-12] at 56); ([DE 35-13] at 106).
At trial, the Petitioner represented himself during the guilt phase. [DE 35-5].
The jury ultimately found Petitioner guilty as charged. [DE 34-4]. The trial court
sentenced Petitioner to thirty-five years imprisonment on Count I followed by ten
years of probation, five years imprisonment on Count II, and one-year imprisonment
on Count III. The sentence for Count I is consecutive to Count II, and the sentence
for Count III is concurrent with the sentence for Count II. [DE 34-5]. At sentencing,
Petitioner was represented by counsel; unlike at trial where he appeared pro se. On
October 29, 2013, the trial court entered the judgment and sentence. Id. Appellate
counsel filed a direct appeal of Petitioner’s conviction and sentence. ([DE 33] at 23). The conviction and sentence were affirmed. [DE 34-44].
II.

PROCEDURAL HISTORY

To begin, the Court should note that the Petitioner is a prolific pro se filer who
has been barred by both the state circuit court and the intermediate state appellate
courts from filing “any further motions, pleadings or other documents in Monroe
3

Case: 4:17-cv-10027-KMM

Document #: 68 Entered on FLSD Docket: 07/12/2019

Page 4 of 39

County Circuit Court case number 2012-CFR-818-K unless signed by a member in
good standing of the Florida Bar.” Pawley v. State, 217 So.3d 128, 130 (3d DCA
2017). The court concluded that there comes a point when “enough is enough.” Id.
Further, the Third District Court of Appeal “direct[ed] that such order be forwarded
to the Florida Department of Corrections for its consideration of disciplinary action,
including the forfeiture of gain time. See § 944.279(1), Fla. Stat. (2015).” Id. Given
the long and complex history of the Petitioner’s filings in the state court system2, the
Court will only recount the historically relevant pleadings here.
Following the guilty verdict, Petitioner timely appealed his judgment and
sentence in the Third District Court of Appeals, Case No. 3D13-2992. He argued
two claims for relief. [DE 34-46]. Petitioner was represented by appellate counsel.
The issues were as follows:
1) The trial judge denied defendant his Sixth Amendment right to counsel
when the court allowed defendant to represent himself without conducting
an adequate Faretta hearing during which the court could have explained
to defendant all the disadvantages of representing himself including, but
not limited to, the importance of having an attorney to preserve issues for
appellate review.
2) The trial judge denied defendant his Sixth Amendment right to call
witnesses on his own behalf, despite the fact that defendant had initiated
his right to call witnesses by filing numerous subpoenas prior to trial.

2 The opinion of the Third District cited the following cases: “3D 16-2758 (the instant case); 3D 162286; 3D16-2120; 3D16-1460; 3D16-1287; 3D16-1039; 3D16-005; 3D15-2952; 3D15-2623;
3D14-2999; 3D14-2535; 3D14-1596; 3D14-1080; 3D14-268; and 3D13-3137.” Id. at 130, n.l.

4

Case: 4:17-cv-10027-KMM

Document #: 68 Entered on F.LSD Docket: 07/12/2019

Page 5 of 39

On May 6, 2015, the Third District Court of Appeal per curiam affirmed the
judgment and sentence without a written opinion, [DE 34-44], Mandate issued on
July 15, 2015. Id. Petitioner did not appeal to the Florida Supreme Court. Instead,
on July 30,2015, he filed a petition for writ of certiorari in the United States Supreme
Court. [DE 34-49], On October 13, 2015, the Court denied the petition. Id.
In the weeks following the denial of certiorari at the United States Supreme
Court, the Petitioner filed various postconviction motions pursuant to Rule 3.800.
See [DE 34]. When relief was denied, the decisions were appealed to the State’s
intermediate and supreme court. Id. This ligation was followed by multiple petitions
for writs of mandamus and Rule 3.850 motions for postconviction relief. Id. On
March 8, 2017, the instant Amended Petition was filed. The Petitioner argues 27
claims for federal habeas relief.
III.

CLAIMS PRESENTED

The Petitioner argues the following 27 claims. They are quoted verbatim for
clarity’s sake to correspond directly with the Amended Petition.
1.

Court violated defendant’s right to compulsory process and due process.

2.

The State of Florida violated Petitioner’s 4th, 5th, 6th, 8th, and 14th
Amendment rights by charging him, trying him, convicting him,
sentencing him, and committing him to the Dept, of Corrections without
having jurisdiction.

3.

The State violated the 4th, 5th, 6th, and 14th Amendment rights guaranteed
to petitioner by illegally acquiring and illegally and unconstitutionally
executing a search warrant and seizures from defendant’s pre-trial jail cell.
5

Case: 4:17-cv-10027-KMM

Document #: 68 Entered on FLSD Docket: 07/12/2019

Page 6 of 39

4.

The trial court violated petitioner’s right to due process (5th and 14th
Amendments) by failing/refusing to rule upon pending pre-trial motions
including Motion to Dismiss.

5.

The trial judge violated petitioner’s 5th, 6th, and 14th Amendment rights
when he allowed a “private” lawyer to prosecute defendant.

6.

Trial court failed to hold a change of plea hearing after defendant filed a
“Notice of Insanity” defense, violating due process under 5th & 14th
Amendments.

7.

The trial judge failed to provide a mental health expert for the defense in
violation of the 5th & 14th Amendments.

8.

The trial judge erred in not holding a [Richardson] hearing to determine a
[Brady] violation of Amends. 5 &14.

9.

The trial judge delivered erroneous and fundamentally flawed verbal and
written jury instructions in violation of Amends. 5 & 14.

10.

The trial court erred in denying the defense motion to sequester the
Witnesses’ [Const. Amend. 5, 14].

11.

The prosecutor knowingly allowed false testimony, failed to step forward
and make it known, and exploited it. [Amends 5, 14].

12.

The trial judge relied upon materially false information at trial and at
sentencing when determining punishment [Amends. 5, 14, 6, 8].

13.

The prosecutor misrepresented the law and the State’s burden of proof to
the Jury [U.S.C.A. Amends. 5, 14].

14.

The trial court violated defendant’s 6th Amendment right to effective
assistance of counsel.

15.

Trial court violated defendant’s constitutional 6th Amend, right to a speedy
trial with demand when it failed to bring the defendant to trial within 60
days of demand.
6

Case: 4:17-cv-10027-KMM

Document #: 68 Entered on FLSD Docket: 07/12/2019

Page 7 of 39

16.

The trial court erred in not granting defense motion for judgment of
acquittal in violation of due process.

17.

The trial court erred in not granting petitioner’s Motion for New Trial
pursuant to Rule 3.600, and Const. Amends. 5, 6, 14.

18.

Appellate Counsel’s Acts/Omissions on Direct Appeal, when cumulatively
considered violated petitioner’s 6th Amendment right to effective
assistance of counsel.

19.

The trial judge denied inclusion of lesser included offenses.and left out the
instructions, those that were approved,

20.

The trial court and appeal [sic] court both violated due process under
U.S.C.A. Amends. 5, 14 by failing to properly review petitioner’s
postconviction motion.

21.

The trial court sentenced the petitioner to a term of imprisonment that
exceeds the statutory maximum.

22.

Defense counsel was ineffective for erroneously informing him that the
law did not recognize an involuntary intoxication defense, and that in fact
there were no defenses available to the defendant.

23.

Defense counsels (Sarah Maya, William Kuypers, and Anthony Barrows)
all provided ineffective assistance of counsel by failing to file a motion to
suppress the illegally seized documents (including undisputed attorneyclient privileged material) obtained in the illegal search of petitioner’s pre­
trial jail cell, while he was awaiting trial.

24.

Defense Counsel (Anthony Bairows) failed to present mitigation evidence
in the penalty phase (sentencing) of the trial, which resulted in an
extremely harsh sentence more than 5-times the “recommended” sentence
by legislature - a (50) year disproportionate sentence for an accident
caused directly by the victim.

25.

Conviction was obtained by the unconstitutional failure of the prosecution
to disclose to the defendant evidence favorable to the defendant.

7

Case: 4:17-cv-10027-KMM

Document #: 68 Entered on FLSD Docket: 07/12/2019

Page 8 of 39

26.

Defense Counsel was ineffective by failing to locate and depose either of
the alleged victims in the case.

27.

Trial Counsel’s, Appellate Counsel’s Court’s and State Prosecutor’s
errors, intentional acts and omissions, misconduct and constitutional
violations were all egregious enough on their own; however, when
considered in toto, the cumulative effect was highly prejudicial and most
certainly changed the outcome of the proceeding.

([DE 12] at 5-26).
IV.

STANDARDS OF REVIEW

Federal habeas litigation is replete with procedural rules and requirements.
Indeed, on occasion, those requirements have been described “as a thicket of
complex state and federal habeas procedural rules to deny habeas petitioners the
opportunity to have their substantive constitutional claims heard by a federal court.
Howell v. Sec'y, Fla. Dep'tofCorr.,130F.3d 1257,1262 (11thCir. 2013) (J. Barkett,
concurring). The process is not as simple as asserting a claim for relief from a
constitutional violation and having your claim reviewed on the merits. A federal
habeas petitioner must: (1) timely present his claims, (2) the claims must be of a
federal constitutional nature, and (3) the claim must be exhausted in the state courts.
Should a petitioner fail to do so, the actual merits of his claim may never be heard.
A. Statute of Limitations
The Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”)
imposed a one-year limitations period for the filing of an application for relief under
§ 2254. Accordingly, 28 U.S.C. § 2244(d) provides:
8

Case: 4:17-cv-10027-KMM

(i)

(2)

Document#: 68 Entered on FLSD Docket: 07/12/2019

Page 9 of 39

A 1-year period of limitation shall apply to an application for a
writ of habeas corpus by a person in custody pursuant to the
judgment of State court. The limitation period shall run from the
latest of (A)

the date on which the judgment became final by the
conclusion of direct review or the expiration of the time
for seeking such review;

(B)

the date on which the impediment to filing an application
created by State action in violation of the Constitution or
laws of the United States is removed, if the applicant was
prevented from filing by such State action;

(C)

the date on which the constitutional right asserted was
initially recognized by the Supreme Court, if the right has
been newly recognized by the Supreme Court and made
retroactively applicable to cases on collateral review; or

(D)

the date on which the factual predicate of the claim or
claims presented could have been discovered through the
exercise of due diligence.

The time during which a properly filed application for State
postconviction or other collateral review with respect to the
pertinent judgment or claim is pending shall not be counted
toward any period of limitation under this subsection.

In most cases, including the present case, the limitation period begins to run
pursuant to § 2244(d)(1)(A). The Eleventh Circuit has decided that the judgment
becomes “final” within the meaning of § 2244(d)(1)(A) as follows: (1) “if the
prisoner files a timely petition for certiorari, the judgment becomes ‘final’ on the
date on which the Supreme Court issues a decision on the merits or denies certiorari,
or (2) the judgment becomes ‘final’ on the date on which the defendant’s time for
9

Case: 4:17-cv-10027-KMM

Document #: 68 Entered on FLSD Docket: 07/12/2019

Page 10 of 39

filing such a petition expires.” Bond v. Moore, 309 F.3d 770, 773-74 (11th Cir.
2002). The State has not argued that the petition is time-barred. The Court proceeds
to the remaining procedural requirements: exhaustion and statutory procedural bars
and, ultimately, the merits.
B. Federal Constitutional Violation
Federal habeas relief is available to correct only constitutional injury. 28
U.S.C. § 2254(a); Estelle v. McGuire, 502 U.S. 62, 67-68 (1991). Federal habeas
petitions may be entertained only on the ground that a petitioner is in custody in
violation of the Constitution or laws or treaties of the United States. 28 U.S.C. §
2254(a). A state's interpretation of its own laws or rules provides no basis for federal
habeas corpus relief, since no question of a constitutional nature is involved.
Bronstein v. Wainwright, 646 F.2d 1048, 1050 (5th Cir. Unit B June 1981). State
courts' are the ultimate expositors of their own laws, and federal courts entertaining
petitions for writs of habeas corpus are bound by the construction placed on a state's
criminal statutes by the courts of the state except in extreme cases. Mendiola v.
Estelle, 635 F.2d 487, 489 (5th Cir. Unit A 1981).
“[HJabeas corpus is the appropriate remedy for state prisoners attacking the
validity of the fact or length of their confinement.” Preiser v. Rodriguez, 411 U.S.
475,490 (1973). Federal habeas relief is available to remedy defects in a defendant's
conviction and sentence, but “an alleged defect in a collateral proceeding does not
10

Case: 4:17-cv-10027-KMM

Document.#: .68 Entered on FLSD Docket: 07/12/2019

Page 11 of 39

state a basis for habeas relief.” Quince v. Crosby, 360 F.3d 1259, 1262 (11th Cir.
2004); see also Carroll v. Sec'y, DOC, 574 F.3d 1354,1365 (11th Cir. 2009). There
is a valid reason behind this principle: “[A] challenge to a state collateral proceeding
does not undermine the legality of the detention or imprisonment-i.e., the conviction
itself-and thus habeas relief is not an appropriate remedy.” Carroll, 574 F.3d at 1365.
C. Exhaustion and Procedural Bar
Before seeking habeas relief under § 2254, however, a petitioner "must
exhaust all state court remedies available for challenging his conviction." See 28
U.S.C. § 2254(b)(1). A claim must be presented to the highest court of the state to
satisfy the exhaustion of state court remedies requirement. O'Sullivan v. Boerckel,
526 U.S. 838, 847 (1999); Lucas v. Sec'y, Dep’tofCorr.,682 F.3d 1342,1351 (11th
Cir. 2012). A petitioner is required to present his claims to the state courts so that
the state courts can address the petitioner’s constitutional claim and have an
"opportunity to apply controlling legal principles to the facts bearing upon [his]
constitutional claim." Picard v. Connor, 404 U.S. 270, 277 (1971). ”[T]o exhaust
state remedies fully[,] the petitioner must make the state court aware that the claims
asserted present federal constitutional issues." Jimenez v. Fla. Dep't of Corn, 481
F.3d 1337, 1342 (11th Cir. 2007) (per curiam) (quotation omitted).
As is relevant in this case, in Florida, exhaustion is ordinarily accomplished
on direct appeal. If not, it may be accomplished by the filing of a Rule 3.850 motion.
11

Case: 4:17-cv-10027-KMM

Document #: 68 Entered on FLSD Docket: 07/12/2019

Page 12 of 39

Leonard v. Wainwright, 601 F.2d 807, 808 (5th Cir. 1979). Claims of ineffective
assistance of trial counsel are generally not reviewable on direct appeal but are
properly raised in a motion for postconviction relief. See Bruno v. State, 807 So.2d
55, 63 (Fla. 2001). In Florida, exhaustion of claims raised in a Rule 3.850 motion
includes an appeal from the denial of the motion. See Leonard, 601 F.2d at 808
(holding that Florida state remedies are exhausted after appeal to the district court of
appeal from denial of a collateral attack upon a conviction).
A procedural-default bar in federal court can arise in two ways: (1) when a
petitioner raises a claim in state court and the state court correctly applies' a
procedural default principle of state law; or (2) when the petitioner never raised the
claim in state court, and it is obvious that the unexhausted claim would now be
procedurally barred in state court. Kirksey v. Sec y, Dep’t of Corr., No. 17-13369A, 2018 WL 7139263, *6 (11th Cir. Nov. 15, 2018). Pursuant to this doctrine, "[i]f
the petitioner has failed to exhaust state remedies that are no longer available, that
failure is a procedural default which will bar federal habeas relief, unless either the
cause and prejudice or the fundamental miscarriage of justice exception is
applicable." Id., citing, O'Sullivan, 526 U.S. at 845-46.
While the procedural default issue should ordinarily be resolved first, "judicial
economy sometimes dictates reaching the merits of [a claim or claims] if the merits
are easily resolvable against a petitioner while the procedural bar issues are
12

Case: 4:17-cv-10027-KMM

Document #: 68 Entered on FLSD Docket: 07/12/2019

Page 13 of 39

complicated." See Lambrix v. Singletary, 520 U.S. 518, 524-25 (1997) (noting that
procedural default issue should ordinarily be resolved first but denying habeas relief
on a different basis because resolution of the default issue would require remand and
further judicial proceedings).
D. Merits Consideration
Under AEDPA, a federal court may grant habeas relief only when a state
court's decision on the merits was "contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by" decisions from this
Court, or was "based on an unreasonable determination of the facts." 28 U.S,C. §
2254(d).
The standard is highly deferential. "As a condition for obtaining habeas corpus
from a federal court, a state prisoner must show that the state court’s ruling on the
claim being presented in federal court was so lacking in justification that there was
an error well understood and comprehended in existing law beyond any possibility
for fair-minded disagreement." Harrington v. Richter, 562 U.S. 86, 103 (2011); see
also Greene v. Fisher, 565 U.S. 34, 37 (2011) (The purpose of AEDPA is "to ensure
that federal habeas relief functions as a guard against extreme malfunctions in the
state criminal justice systems, and not as a means of error correction.”) (internal
quotation marks omitted).

13

Case: 4:17-cv-10027-KMM

Document #: 68 Entered on FLSD Docket: 07/12/2019

Page 14 of 39

A state court's decision is "contrary to" clearly established Supreme Court
precedent in either of two respects: (1) "if the state court applies a rule that
contradicts the governing law set forth in [Supreme Court] cases," or (2) "if the state
court confronts a set of facts that are materially indistinguishable from a decision of
[the Supreme] Court and nevertheless arrives at a result different from [the Supreme
Court's] precedent." Williams v. Taylor, 529 U.S. 362,405-06 (2000). To determine
whether a state court decision is an "unreasonable application" of clearly established
federal law, we are mindful that "an unreasonable application of federal law is
different from an incorrect application of federal law." Id. at 410. As a result, "[a]
state court's determination that a claim lacks merit precludes federal habeas relief so
long as fairminded jurists could disagree on the correctness of the state court's
decision." Harrington, 562 U.S. at 101.
It is noted that the state court is not required to cite, or even have an awareness
of, governing Supreme Court precedent, "so long as neither the reasoning nor the
result of [its] decision contradicts them." Early v. Packer, 537 U.S. 3, 8 (2002)\ cf
Harrington, 562 U.S. at 98 (reconfirming that "§ 2254(d) does not require a state
court to give reasons before its decision can be deemed to have been ’adjudicated on
the merits'" and entitled to deference); Mitchell v. Esparza, 540 U.S. 12, 16 (2003)
("[A] state court's decision is not ‘contrary to ... clearly established Federal law’
simply because the court did not cite [Supreme Court] opinions.... [A] state court
14

Case: 4:17-cv-10027-KMM

Document #: 68 Entered on FLSD Docket: 07/12/2019

Page 15 of 39

need not even be aware of [Supreme Court] precedents, ‘so long as neither the
reasoning nor the result of the state-court decision contradicts them.'") (quoting
Early, 537 U.S. at 7-8).
State court decisions are afforded a strong presumption of deference even
when the state court adjudicates a petitioner's claim summarily—without an
accompanying statement of reasons. Harrington, 562 U.S. at 91 -99 (concluding that
the summary nature of a state court's decision does not lessen the deference that it is
due); Gill v. Mecusker, 633 F.3d 1272, 1288 (11th Cir. 2011) (acknowledging the
well-settled principle that summary affirmances are presumed adjudicated on the
merits and warrant deference); see also Renico v. Lett, 559 U.S. 766, 773 (2010)
("AEDPA ... imposes a highly deferential standard for evaluating state-court rulings
... and demands that state-court decisions be given the benefit of the doubt.")
(citations and internal quotation marks omitted). As recently noted by the Supreme
Court, adherence to these principles serves important interests of federalism and
comity. Woods v. Donald, 135 S. Ct. 1372, 1376 (2015). "AEDPA's requirements
reflect a ‘presumption that state courts know and follow the law.’" Id., quoting,
Woodford v. Visciotti, 537 U.S. 19, 24 (2002) (per curiam).
It is critical to note that review under § 2254(d)(1) is limited to the record that
was before the state court that adjudicated the claim on the merits. See Cullen v.
Pinholster, 563 U.S. 170, 181-85 (2011) (holding new evidence introduced in
15

Case: 4:17-cv-10027-KMM

Document #': 68 Entered on FLSD Docket: 07/12/2019

Page 16 of 39

federal habeas court has no bearing on Section 2254(d)(1) review). Further, a state
court's factual determination is entitled to a presumption of correctness. 28 U.S.C. §
2254(e)(1). Under 28 U.S.C. § 2254(e)(1), this Court must presume the state court's
factual findings to be correct unless the petitioner rebuts that presumption by clear
and convincing evidence. See id. § 2254(e)(1). Although the Supreme Court has
"not defined the precise relationship between § 2254(d)(2) and § 2254(e)(1)," Burt
v. Tit-low, 568 U.S. 1191 (2013), the Supreme Court has emphasized "that a statecourt factual determination is not unreasonable merely because the federal habeas
court would have reached a different conclusion in the first instance." Burt, id.
(iquoting Wood v. Allen, 558 U.S. 290, 301 (2010)). Given this backdrop, the Court
proceeds to the Petitioner’s claims.
V.

ANALYSIS

On its face, the Amended Petition is unwieldy. The Petitioner asserts 27
claims for relief.

However, certain of the claims are unexhausted, others are

procedurally barred, and the remaining claims are meritless. For ease of reference
and judicial economy, the Court will adjudicate the claims in those respective
categories.

16

Case: 4:17-cv-10027-KMM

Document#: 68 Entered on FLSD Docket: 07/12/2019

Page 17 of 39

To make the Amended Petition manageable, the Court identifies the
individual claim, then identifies where the Petitioner asserted that claim in the state
court system3, and the result of the judicial proceeding.
Claims History
Claim 1 - Direct Appeal [DE 34-46]. Case No. 3D13-2992, affirmed per curiam
without written opinion. [DE 34-44].
Claim 2 - Rule 3.800 Motion to Correct Illegal Sentence. Trial court denied relief.
[DE 34-62]. Appeal. Case No. 3D16-5, affirmed without written opinion. [DE 6460].
Claim 3 - State Petition for Writ of Habeas Corpus. Case No. 3D 16-1460, [DE 3488] denied. [DE 34-87].
Claims 4 -19: State Petition for Writ of Habeas Corpus. Case No. 3D16-1460, [DE
34-88] denied. [DE 34-87].
Claim- 20 - Rule 3.850 Motion for Postconviction Relief. [DE 34-101].
Appeal. Case No. 3D16-2286, affirmed per curiam without written opinion. [DE 34104].
Claim. 21 - Rule 3.800 Motion to Correct Illegal Sentence. Trial court denied relief.
[DE 34-62]. Appeal. Case No. 3D16-5, affirmed without written opinion. [DE 6460].
Claims 22 - 27 Rule 3.850 Motion for Postconviction Relief. [DE 34-101]
Appeal. Case No. 3D16-2286, affirmed per curiam without written opinion. [DE
34-104]

3 This is not to suggest that the Petitioner “properly” exhausted the claim; rather, it simply
identifies the state court pleadings where a claim, similar in substance, was made.

17

Case: 4:17-cv-10027-KMM

Document #: 68 Entered on FLSD Docket: 07/12/2019

Page 18 of 39

Unexhausted claims
Claims 2-17 & Claim 19 are unexhausted. While, Petitioner asserts these 17
claims as individual substantive claims for federal habeas relief, in the state courts
he asserted these same 17 substantive claims, not as freestanding claims, but purely
as the underlying factual basis for claims of appellate counsel’s ineffectiveness. In
fact, the title of his Initial Brief at the Third District Court of Appeal was “Petition
Alleging Ineffective Assistance of Appellate Counsel.” Here, he makes no such
allegations. In other words, Petitioner is now arguing different constitutional claims
with different applicable standards of review from the claims raised in state court.
This he cannot do.
When denying Petitioner state habeas relief, the court categorized Petitioner’s
claims as “alleging ineffective assistance of appellate counsel.” Pawley v. State, 210
So.3d 1293 (3d DCA 2016). Here, however, Petitioner only vaguely referenced
appellate counsel. The Petitioner has not made a single reference to Strickland v.
Washington, 466 U.S. 668 (1984), nor has he attempted to argue here that he was
prejudiced by any perceived deficiency of appellate counsel. Before this Court, the
Petitioner argues these claims as trial error or prosecutorial misconduct without
discussing appellate counsel’s deficient performance and ensuing prejudice. This is
fatal to his claim.

18

Case: 4:17.-cv-10027-KMM

Document #: 68 Entered on FLSD Docket: 07/12/2019

Page 19 ot 39

Moreover, Petitioner does not address why the state court’s denial of his
claims was an unreasonable application of clearly established federal law. The Court
surmises that the Petitioner, represented by counsel on direct appeal, declined to
raise these substantive claims and later attempted, pro se, to resurrect them (knowing
the claims were otherwise procedurally barred from review under Florida law) by
asserting them as claims of ineffective assistance of appellate counsel. Ineffective
assistance of appellate counsel can be raised in a state habeas petition in Florida, but
trial court error cannot. Yet, here, Petitioner reverts to the substantive claims he was
unable to raise in state court because of a state procedural bar. Because the state
courts have not considered the claims on their merits, neither can this Court.
The Court must deny relief as opposed to dismissing the claims to allow Petitioner
to return to state court. Dismissing an unexhausted claim to permit a petitioner to
exhaust available state remedies is not warranted where further efforts to exhaust it
in the state forum would be futile. Exhaustion would be futile when no state
corrective process remains available: the claim would be procedurally barred in state
courts if presented there.4

4 The claim would be procedurally barred in state court if the motion or other application for relief
would be untimely pursuant to state procedural rules. Florida law states that “[ijssues which either
were or could have been litigated at trial and upon direct appeal are not cognizable through
collateral attack.” Smith v. State, 445 So.2d 323, 325 (Fla. 1983). A successive motion for
postconviction relief can be denied on the ground that it is an abuse of process if there is no reason

19

Case: 4:17-cv-10027-KMM

Document #: 68 Entered on FLSD Docket: 07/12/2019

Page 20 of 39

Moreover, unexhausted claims that would be procedurally barred if presented
to the state court are also procedurally defaulted for purposes of federal habeas relief.
Coleman v. Thompson, 501 U.S. 722, 735 n.l (1991).

To overcome such a

procedural bar in federal court, a petitioner would have to show objective cause for
his failure to properly raise the claim in the state forum and actual prejudice resulting
from the error or establish the kind of fundamental miscarriage of justice occasioned
by a constitutional violation that resulted in the conviction of a defendant who was
“actually innocent,” as contemplated in Murray v. Carrier, All U.S. 478 (1986).
To establish actual innocence, “a petitioner must show that it is more likely
than not that no reasonable juror would have found petitioner guilty beyond a
reasonable doubt.” Schlup v. Delo> 513 U.S. 298, 327 (1995). For such a claim to
be credible, it must be supported with “new reliable evidence-whether it be
exculpatory scientific evidence, trustworthy eyewitness accounts or critical physical
evidence-that was not presented at trial.” Id. at 324. The Petitioner has offered no
such evidence.
Finally, even if these claims were not procedurally barred, they are
insufficiently pled as Strickland claims. Here, Petitioner has not only failed to show

for failing to raise the issues in the previous motion. Moore v. State, 820 So.2d 199, 205 (Fla.
2002).

20

Case: 4:17-cv-10027-KMM

Document #: 68 Entered on FLSD Docket: 07/12/2019

Page 21 of 39

either one of the Strickland components, he has failed to even discuss them. “Federal
courts are authorized to dismiss summarily any habeas petition that appears legally
insufficient on its face, see 28 U.S.C. § 2254 Rule 4.” McFarland v. Scott, 512 U.S.
849, 856 (1994). Claims 2-17 and Claim 19 should be denied.
A. Procedurally Barred Claims
Petitioner has also, asserted three claims, Claims 20-21 & 25, which were
exhausted in . the state courts, however, these claims are otherwise barred from
federal habeas review because they present no federal constitutional question.
Federal law requires that the claim raise an issue of federal constitutional dimension
and not simply an issue of state law. Federal habeas relief for a person in custody
pursuant to the judgment of a state court is available only on the ground that the
custody violates the Constitution, laws, or treaties of the United States. 28 U.S.C. §
2254(a); Jones v. Goodwin, 982 F.2d 464, 471 (11th Cir.1993) (emphasis added).
Further, a state's interpretation of its own laws or rules provides no basis for
federal habeas corpus relief, because no federal constitutional question is presented.
28 U.S.C. § 2254(a); Estelle, 502 U.S. at 67. (“[I]t is not the province of a federal
habeas court to reexamine state-court determinations on state-law questions.”).
These prohibitions stand as a barrier to a merits determination of Claims 20-21 &
Claim 25.
i.

Federal Constitutional Violation
21

Case: 4:17-cv-10027~KMM

Document #: 68 Entered on FLSD Docket: 07/12/2019

Page 22 of 39

Claim 20
In Claim 20, Petitioner raises various errors made by the trial and state
intermediate appellate courts that reviewed his postconviction motion.

These

alleged errors were made, not during trial, but rather during his state postconviction
proceedings.

([DE 12] at 18).

Specifically, the Petitioner argues that the

postconviction court failed to allow him to amend his state postconviction motion
even though state law provides for amendment to any claims deemed “legally
insufficient.” Id. He further argues that the postconviction court failed to hold an
evidentiary hearing. The Petitioner attempts to create a federal constitutional claim
from what is clearly a state law issue by simply invoking the broad principle of due
process. This is prohibited.
General appeals to broad constitutional principles, such as due process, equal
protection, and the right to a fair trial, are insufficient to establish exhaustion. See
Gray v. Netherlands 518 U.S. 152, 162-63 (1996); see also Picard v. Connor, 404
U.S. 270, 275 (1971)(holding that for purposes of exhausting state court remedies, a
claim for habeas corpus relief must include a reference to a specific constitutional
guarantee, as well as a statement of the facts the petitioner believes entitle him to
relief).
In his initial brief at the Third District Court of Appeal, Petitioner argued that
the postconviction court was not in compliance with state law or the state rules of
22

Case: 4:17-cv-10027-KMM

Document#: 68 Entered on FLSD Docket: 07/12/2019

Page 23 ot 39

criminal procedure regarding amendments and evidentiary hearings. See [DE 34108]. Petitioner did not raise any federal constitutional concerns such that this Court
could consider the decision of the state court for a reasonableness analysis under 28
U.S.C. § 2254. This claim should be denied.
Claim 21
In Claim 21, the Petitioner argued in a motion to correct illegal sentence,
pursuant to Fla. R. Crim. P. 3.800, that he received a prison term and probationary
period that was more than three times the statutory maximum allowed by Florida
law. ([DE 12] at 19). He asserts that his crime was only an “attempt” and was not
“completed” such that he should not have'received an enhanced penalty. While the
appellate court affirmed the denial of relief without opinion, the postconviction court
issued a written order denying relief. Relevant here, the court found that “the crime
of Attempted First Degree Murder is a level 10 crime when a weapon is used to
effectuate the murder and the use of the weapon is not essential element of the
underlying crime.” Id. at 3.
This claim challenges the state court’s application of its sentencing laws and,
as a result, is not cognizable on federal habeas review. See 28 U.S.C. § 2254(a);
Engle, 456 U.S. at 120-21; Branan, 861 F.2d at 1508 (“[F]ederal courts cannot
review a state's alleged failure to adhere to its own sentencing procedures.”).
Petitioner couches his sentencing claim in terms of due process and Eighth
23

Case: 4:17-cv-10027-KMM

Document #: 68 Entered on FLSD Docket: 07/12/2019

Page 24 of 39

Amendment violations, but the substance of his claim is state court error in the
application of its own sentencing laws. Estelle, 502 U.S. at 67 (“[s]uch an inquiry,
however, is no part of a federal court's habeas review of a state conviction. We have
stated many times that “federal habeas corpus relief does not lie for errors of state
law.’”). Federal habeas relief cannot be granted here.
ii.

State Procedural Bar
Claim 25

Likewise, Claim 25, a claimed violation of Brady v. Maryland, 373 U.S. 83
(1963), suffers a similar procedural fate. The Petitioner first raised this claim in his
Rule 3.850 motion. [DE 34-101]. The postconviction court denied relief finding that
“[withholding Brady material is an issue which could have been a matter for direct
appeal. Smith v. State, 457 So.2d 388 (Fla. 1984).” ([DE 34-106] at 9). A state
procedural default precludes consideration of an issue on federal habeas review
when the last state court rendering a judgment on the issue in question “clearly and
expressly” states that its judgment rests on a procedural bar. See Coleman v.
Thompson, 501 U.S. 722, 729 (1991). To overcome a procedural bar, a petitioner
must demonstrate objective cause for his failure to properly raise the claim in the
state forum and actual prejudice resulting from the identified error. See United
States v. Frady, 456 U.S. 152, 168 (1982); Wainwright v. Sykes, 433 U.S. 72, 87
(1977).
24

Case: 4:17-cv-10027-KMM

Document #: 68 Entered on FLSD Docket: 07/12/2019

Page 25 of 39

Here, Petitioner did not attempt to overcome the procedural bar, nor has he
explained why his Brady claim, the failure of the prosecution to provide him with
the court-appointed psychologist’s report prior to trial, could not have been made on
direct appeal. By his own admission, he was aware of and repeatedly requested the
report, but it was never provided to him. ([DE 12] at 24). Therefore, this issue
“could” have been made on direct appeal and in compliance with state law. Since
the Petitioner has not alleged, let alone established, cause to excuse his default, it
need not be determined whether he suffered actual prejudice. Weeks v. Jones, 26
F.3d 1030, 1046 (11th Cir. 1994). The Court is unable to consider the merits of this
claim.
B. Merits Determination
Seven federal habeas claims remain for consideration on their actual merit.
They fall into three distinct categories: trial court error (Claim 1), ineffective
assistance of appellate counsel (Claim 18), and ineffective assistance of trial counsel
(Claims 22-24 & 26-27).

Each of these claims were properly exhausted and

reviewed by the state courts. Under AEDPA, if a claim was adjudicated on the merits
in state court, habeas corpus relief can only be granted if the state court’s
adjudication “resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established federal law, as determined by the Supreme Court
of the United States,” or “resulted in a decision that was based on an unreasonable
25

Case: 4:17-cv-10027-KMM

Document #: 68 Entered oh FLSD Docket: 07/12/2019

Page 26 of 39

determination of the facts in light of the evidence presented in the state court
proceeding.” 28 U.S.C. § 2254(d)(l)-(2). For the reasons that follow, habeas relief
should be denied as to all of the remaining claims.
i.

Trial Court Error
Claim 1

Petitioner’s first claim for relief is that the trial court violated his right to
compulsory and due process when it provided “faulty and incorrect (civil) subpoenas
to the defendant, pro se, in the jail which did not have any place to put the trial date
(or ‘standby’) on them.” ([DE 12] at 6). The Petitioner alleges that the clerk’s office
filed the subpoenas without serving them. Id. The State responds that, if error
occurred, “it was invited error” because the Petitioner was warned regarding the
pitfalls of representing oneself and the danger in making a speedy trial demand. ([DE
33] at 30). The State contends that the Petitioner knew of his Monday trial date but'
did not attempt to issue subpoenas until the Friday before and that the subpoenas, as
drafted, were incomplete. Id. at 31. The Third District Court of Appeal considered
this claim on direct appeal but denied it per curiam without written opinion. [DE 3444]. In other words, the parties and this Court have no way of knowing the rationale
behind the state court’s denial of relief. Nonetheless, this Court is required to apply
AEDPA deference. See Harrington, 562 U.S. at 98.

26

Case: 4:17-cv-10027-KMM

Document#: 68 Entered on FLSD Docket: 07/12/2019

Page 27 of 39

Generally, absent the Court finding that the state court’s ruling on the claim
“being presented in federal court was so lacking in justification that there was an
error well understood and comprehended in existing law beyond any possibility for
fairminded disagreement,” federal habeas relief must be denied. Id. at 786.
Similarly, “where a state court’s decision is unaccompanied by an explanation, the
habeas petitioner’s burden still must be met by showing there was no reasonable
basis for the state court to deny relief.” Id. at 98.
The Court has reviewed the record. The Petitioner chose to represent himself
at trial. ([DE 34-46] at 26). After full disclosure and being cautioned by the court,
he made a speedy trial demand. On the Friday before the Monday trial date, he
sought to issue subpoenas to defense witnesses. However, he did not properly
complete the subpoenas such that the sheriff could serve them. They were, by his
own admission, incomplete; lacking the date and time that the witness was to appear
to testify. Id. at 27. When no one appeared, the trial proceeded without those
witnesses testifying. Now, Petitioner asserts that his constitutional right to be
confronted with the witnesses against him was violated.
However, the claim is not that his constitutional rights under the
Confrontation Clause was violated. Rather, the substance of his claim is that the
clerk’s office failed to complete, correct, and serve the subpoenas he chose to issue
the Friday before trial started. This failure resulted in his not having secured the
27

Case: 4:17-cv-10027-KMM

Document #: 68 Entered on FLSD Docket: 07/12/2019

Page 28 of 39

presence of the witnesses he sought to confront. However, the trial court did not
preclude or deny the Petitioner the right to call witnesses in his own defense. The
Petitioner did not procure those witnesses attendance for trial. This distinction
makes this federal habeas claim a very different claim from a Confrontation Clause
claim.
Even if the clerk of the court should have “assisted” the Petitioner, failure on
the part of the clerk’s office to assist a pro se litigant with subpoenas to secure
witness attendance is not one that is cognizable in a federal habeas petition. “A
violation of a state rule of procedure or of a state law is not itself a violation of the
federal constitution.” See Barclay v. Florida, 463 U.S. at 958-659.
Moreover, it was not an unreasonable application of clearly established
federal law to deny relief on this claim in the state courts. The Court is unaware of
any federal law that would require the clerk’s office to assist a pro se litigant in this
fashion.
li.

Ineffective Assistance of Appellate Counsel
Claim 18

Petitioner’s eighteenth claim for federal habeas relief is that his Sixth
Amendment right to the effective assistance of counsel was violated because his
appellate counsel was ineffective. ([DE 12] at 17). The alleged deficiency is the
cumulative effect of appellate counsel’s errors. As the basis for this claim, the
28

Case: 4:17-cv-10027-KMM

Document #; 68 Entered on FLSD Docket: 07/12/2019

Page 29 of 39

Petitioner cites to the 25 ineffective assistance of appellate counsel claims he
asserted in his state habeas petition. Id. The State responded that it remains an open
question in this Circuit as to whether cumulative error claims are cognizable on
federal habeas review. ([DE 33] at 101). Specifically, the State argues that “[t]his
uncertainty cannot provide ‘clearly established federal law’ for purposes of the
AEDPA.” Id. at 102.
However, while true, the State’s argument misses the mark. The “clearly
established federal law” standard applies to the decisions of the state courts and the
reasonableness of those decisions. Here, the state court was not asked to determine
if there were federally cognizable habeas claims for cumulative effect of error;
rather, the state court was tasked with considering the substance of each individual
claim as raised and applied in the state court and whether those cumulative errors
could constitute ineffective assistance of counsel when viewed as a whole.
Therefore, the “clearly established federal law” standard is not applicable to whether
or not federal law recognizes a cumulative error claim on federal habeas review but
instead, is applicable to the state court determination that there was no cumulative
effect of errors that resulted in a constitutional violation.
While this Court, when reviewing this claim, can find that there is no legal
basis for a cumulative error claim on federal habeas review, the Court need not do
so because, even if the claim was cognizable, it fails on the merits. The crux of the
29

Document #: 68 Entered on FLSD Docket: 07/12/2019

Case: 4:17-cv-10027-KMM

Page 30 of 39

underlying claim is ineffective assistance of appellate counsel based on the
cumulative effect of failing to raise certain claims on direct appeal. However, the
state court denied all the underlying ineffective assistance of appellate counsel
claims on the merits. As the state court has found no singular error, it was not
unreasonable for the state court to reject a cumulative effect claim. See United States
v. Waldon, 363 F.3d 1103 (11th Cir. 2004) (citing United States v. Allen, 269 F.3d
842, 847 (7th Cir. 2001) (“If there are no errors or a single error, there can be no
cumulative error”)).
m.

Ineffective Assistance of Trial Counsel
Claim 22

Petitioner’s twenty-second claim for federal habeas relief is that trial counsel
was ineffective for erroneously informing him that Florida did not recognize
“involuntary intoxication” as a defense. ([DE 12] at 20). Further, Petitioner argues
that counsel did not investigate this defense even in the face of overwhelming
evidence that he was “highly affected by the extreme overdose” of Ambien. Id.
Petitioner first raised this claim in his state postconviction motion. It was
rejected because “[e]ven assuming the initial defense attorney performed as the
Defendant alleges, he has not shown prejudice.” ([DE 34-106] at 5). The court found
that he failed to show prejudice because Petitioner was acting as his own attorney
and “he successfully changed his plea” and “moved for an order[] appointing experts
30

Case: 4:17-cv-10027-KMM

Document #: 68 Entered on FLSD Docket: 07/12/2019

Page 31 of 39

to conduct a mental examination.” Id. The state intermediate appellate court affirmed
without written opinion.
Here, there was an opinion from the trial court, so the Court must “‘look
through’ the unexplained decision to the last related state court that does provide a
relevant rationale” when considering the reasonableness of the state court decision.
Wilson v. Sellers, 138 S.Ct. 1188, 1192 (2018). After “looking through,” the Court
must “presume that the unexplained decision [from the highest court] adopted the
same reasoning.” Id. The State may rebut this presumption “by showing that the
unexplained affirmance relied or most likely did rely on different grounds than the
lower state court’s decision.” Id.
The record reflects that, while acting pro se, the Petitioner made a request for
the appointment of an expert witness. ([DE 34-106] at 16). The court granted the
request and an expert was appointed to assess the defendant’s “sanity at the time of
the offense and assist the defendant in preparation of such a defense.” Id. For
whatever reason, the Petitioner did not pursue this defense at trial. The Petitioner
cannot be prejudiced by the claimed failure of counsel to present a defense that the
Petitioner failed to assert when given a chance to do so.
The Court does not find the prejudice determination of the postconviction
court to be unreasonable. To establish Strickland prejudice, the Petitioner must show
that there is a reasonable probability, but for counsel’s unprofessional errors, the
31

Case: 4:17-cv-10027-KMM

Document #: 68 Entered on FLSD Docket: 07/12/2019

Page 32 of 39

result of the proceeding would have been different.” Id. at 694. The Court defines
a “reasonable probability” as one “sufficient to undermine confidence in the
outcome.” Id.
Even if his defense attorney had incorrectly advised him regarding the
defense, the Petitioner ultimately represented himself at trial, obtained an expert
witness yet failed to raise the defense. He did not pursue the defense when given
the chance; therefore, it was not unreasonable to find that the Petitioner failed to
show prejudice.
Claim 23
Petitioner’s twenty-third claim for federal habeas relief is that trial counsel
provided ineffective assistance of counsel in violation of the Sixth Amendment when
he failed to “file a motion to suppress the illegally seized documents . . . obtained in
the illegal search of petitioner’s pre-trial jail cell.” ([DE 12] at 21). Petitioner asserts
that over 50 pages of attorney-client privileged materials were seized from his jail
cell by the prosecutor’s office. This seizure gave the State an “unfair ‘tactical’ and
‘strategic’ advantage” at trial. Id. Petitioner also contends that the State withheld
some of the documents from the judge’s in camera inspection which resulted in
Petitioner not being able to fully prepare for trial.
Petitioner raised this claim in his state postconviction motion. The court
denied this claim finding that Petitioner showed neither “ineffective assistance or
32

Case: 4:17-cv-10027-KMM

Document#: 68 Entered on FLSD Docket: 07/12/2019

Page 33 of 39

prejudice.” ([DE34-106] at 6). The court pointed out that while counsel didn’t move
to suppress the documents, he did file an emergency motion for in camera inspection
of the seized papers. The court granted the motion for inspection and reviewed the
documents in camera. Privileged documents were returned to Petitioner with the
remaining unprivileged documents provided to the State. Id. at 7. The court found
that this action was the functional equivalent of a suppression motion. Moreover,
Petitioner acted as his own attorney and could have formally moved to suppress the
documents. The court concluded that even if the State had withheld documents from
the court’s inspection, that claim cannot be attributed to defense counsel; rather, it
should have been raised on direct appeal. Id. This finding should not be disturbed.
When the state courts have already answered the question of how an issue
would have been resolved under that state’s law had defense counsel done what the
Petitioner argues he should have done, “federal habeas courts should not secondguess them on such matters” because “it is a fundamental principle that state courts
are the final arbiters of state law.” Callahan v. Campbell, 427 F.3d 897, 932 (11th
Cir. 2005) (quotation marks omitted). Having found that counsel’s motion for in
camera inspection to be the equivalent of a suppression motion, it was not
unreasonable to determine that counsel was not ineffective. Relief should be denied.
Claim 24

33

Case: 4:17-cv-10027-KMM

Document #: 68 Entered on FLSD Docket: 07/12/2019

Page 34 of 39

Petitioner’s twenty-fourth claim for federal habeas relief is that defense
counsel was ineffective for failing to present mitigation evidence at sentencing. ([DE
12] at 22). Petitioner contends that there were four main areas of mitigation that
counsel failed to present at sentencing: (1) the capacity of the defendant to appreciate
the criminal nature of the conduct, (2) the victim was the initiator, (3) the defendant
acted under extreme duress, and (4) the offense was committed in an unsophisticated
manner and defendant has shown remorse. Id. at 23.
The postconviction court rejected these arguments for two primary reasons.
The first three enumerated mitigation factors were “not cognizable at a sentencing
for a non-capital offense” in Florida. ([DE 34-106] at 8). The final factor, the
defendant has shown remorse, the court rejected as “flawed and incredible.” Id. The
court referenced certain pleadings filed pro se by Petitioner which “den[y]
responsibility and continue[] to exhibit no remorse.” Id. Accordingly, the court
found that Petitioner failed to show prejudice.
As the postconviction court applied state law to resolve the first three
mitigating factors by determining that they are not cognizable in a non-capital
sentencing proceeding in Florida, the Court should not disturb that finding. This
determination is an issue of state law for which state courts are the arbiters. See
Estelle, 502 U.S. at 69. (“it is not the province of a federal habeas court to reexamine
state-court determinations on state-law questions.).
34

Case: 4:17-cv-10027-KMM

Document #: 68 Entered on FLSD Docket: 07/12/2019

Page 35 of 39

As to the final factor, the Court has reviewed the record and finds that the
determination that Petitioner did not establish that he showed remorse for his crimes
at sentencing was not an unreasonable determination of facts. Indeed, in the instant
Amended Petition, Petitioner refers to the victim as “alleged” and argues that both
victims gave false statements and testimony. ([DE 12] at 18-33). Petitioner referred
to his trial as a “kangaroo court” and the crime as “a minor scuffle of some sort.” Id.
at 22.

Given these statements, the Court cannot find that the state court’s

determinations of the facts was unreasonable. A federal habeas court must presume
that findings of fact by a state court are correct; and, a habeas petitioner must rebut
that presumption by clear and convincing evidence. See Hunter v. Sec }y, Dep’t. of
Corr., 395 F.3d 1196, 1200 (11th Cir. 2005). The Petitioner, having failed to show
that the state court’s factual determinations were unreasonable, habeas relief should
be denied.
Claim 26
Petitioner’s twenty-sixth claim for federal habeas relief is that defense counsel
was ineffective for failing to locate and depose either of the victims in the case. ([DE
12] at 25). Petitioner argues that because the State’s case was based solely on the
eyewitness accounts of the two victims, their testimony was crucial to the defense.
He asserts that effective assistance of counsel required proper preparation and

35

Case: 4:17-cv-10027-KMM

Document #: 68 Entered on FLSD Docket: 07/12/2019

Page 36 of 39

counsel should have conducted discovery to gain impeachment evidence for trial.
Id.
The postconviction court denied this claim because when the entire record is
considered, the claim is wholly without merit. The court found that Petitioner failed
to show that the victims were available for deposition. In fact, the Public Defender’s
office “attempted to serve victims Lisa Badini and Janice Marie with subpoenas for
deposition; they were returned unserved.” ([DE 34-106] at 12). The court concluded
that counsel cannot be found deficient for failing to depose witnesses who were
unavailable. Moreover, the court noted that Petitioner represented himself during
the guilt phase of trial “and could have moved for depositions” but did not do so. Id.
The Court has reviewed the record and does not find the determination
unreasonable. While it may have been reasonable to find that trial counsel deficiently
failed to vigorously locate and depose the victims, it is also not unreasonable to have
concluded otherwise. “When evaluating whether a state court's decision ‘was based
on an unreasonable determination of the facts in light of the evidence presented in
the State court proceeding’ under § 2254(d)(2), ‘[w]e may not characterize ... statecourt factual determinations as unreasonable ‘merely because [we] would have
reached a different conclusion in the first instance.’” Daniel v. Comm'r, Ala. Dep't
of Corr., 822 F.3d 1248, 1259 (11th Cir. 2016) (citations omitted).

36

Case: 4:17-cv-10027-KMM

Document #: 68 Entered on FLSD Docket: 07/12/2019

Page 37 of 39

The Petitioner has not rebutted the factual determination of the state court by
showing that counsel was able to procure the victims’ attendance at deposition but
did not do so. If the victims were unavailable for deposition, counsel cannot be
deficient for failing to depose them. See Owen v. Sec 'y for Dep’t of Corr., 568 F.3d
894, 915 (11th Cir. 2009). Further, the Petitioner has not shown that he, when
representing himself, sought to depose the victims before trial
Claim 27
Petitioner’s final claim for federal habeas relief is that trial counsel, appellate
counsel, the court, and the State collectively violated his right to a fair trial under the
Sixth Amendment. ([DE 12] at 26). In other words, he alleges cumulative error.
The postconviction court denied this claim because it found “no accumulation of
errors.” ([DE 34-106] at 12).

This determination was not an unreasonable

application of clearly established law nor was it an unreasonable determination of
the facts.
Under these circumstances, Petitioner can satisfy the “unreasonable
application” prong of § 2254(d)(1) only by showing that “there was no reasonable
basis” for the state court’s decision. Harrington, 562 U.S. at 99. More importantly,
even if the Court were not tasked with applying the restrictive analysis of the
AEDPA, as this Court has not found a single error, there can be no cumulative error.
See Waldon, 363 F.3d at 1103. Petitioner’s claim must be denied.
37

Case: 4:17-cv-10027-KMM

Document #: 68 Entered on FLSD Docket: 07/12/2019

Page 38 of 39

Accordingly, after due consideration, it is
RECOMMENDED that Petitioner, Cash Wallace Pawley’s, Petition for Writ
of Habeas Corpus Pursuant to 28 U.S.C. § 2254 be DENIED. All pending motions
should be DENIED as moot. Additionally, a Certificate of Appealability should be
DENIED.
Objections to this Report may be filed with the District Court within fourteen
days of receipt of a copy of the report. Failure to file timely objections shall bar
Plaintiff from a de novo determination by the District Court Judge of an issue
covered in this report and shall bar the parties from attacking on appeal factual,
findings accepted or adopted by the District Court Judge except upon grounds of
plain error or manifest injustice. See 28 U.S.C. §636(b)(l). See also Thomas v. Am,
474 U.S. 140, 149 (1985). See also RTC v. Hallmark Builders, Inc., 996 F.2d 1144,
1149 (11th Cir. 1993).
SIGNED at Miami, Florida on this 12th day of July, 2019.

UNITED STATES MAGISTRATE JUDGE

cc:

Cash Wallace Pawley
DC #K09343
Everglades Correctional Institution
Inmate Mail/Parcels
1599 SW 187th Avenue
Miami, FL 33194
38

Case: 4:17-cv-10027-KMM

Document #; 68 Entered on FLSD Docket: 07/12/2019

Eric John Eves, AAG
Office of the Attorney General
Criminal Appeals Division
SunTrust International Center
One S.E. 3rd Avenue
Suite 900
Miami, FL 33131

39

Page 39

ot

39

Additional material
from this filing is
available in the
Clerk's Office.

